Semiannual Report
 to the Congress
u.s. General Services Administration




  April 1, 1991 - September 30, 1991
                                             FOREWORD
II                                                                                                                 II
     This report summarizes the Office of Inspector General's (OIG) activities between April 1 and Septem-
     ber 30, 1991. During this period, our recommended savings and cost avoidances exceeded $192 mil-
     lion. Savings achieved this period from management decisions and recoveries totaled over
     $128 million-representing a retum of approximately $8.21 for every $1 in our budget. We take great
     pride in our contributions. and I would like to highlight several accomplishments that are particularly
     important to both the OIG and GSA.
     Our audit function received high marks by the extemal quality review team that conducted the first
     peer review of our operations. We were very pleased to receive this report.
     During this period. a relocation services company agreed to pay nearly $11 million-$4 million to
     settle its civil liability and nearly $7 million to resolve a class action suit filed OIl behalf of Federal
     employees who suffered because of this company's deceptive practices.
     During this period, we also received our first administrative recovery under the Program Fraud Civil
     Remedies Act.
     I am pleased to report that several significant cases were initiated because GSA employees came
     forward with allegations about improprieties. We attribute this cooperative spirit between GSA em-
     ployees and the OIG to our prevention program.
     We are dedicated to making our organization the finest OIG in the Federal Govemment. To this end,
     we have launched an ambitious Quality Management program that will help us improve and enhance
     every aspect of our operation. The computer upgrade program we started several years ago is on
     schedule, and we are reaping the benefits from automation. We have a well-trained and highly dedi-
     cated work force that will continue to produce the level of results outlined in this report.
     I want to take this opportunity to thank the GSA Administrator and Members of Congress for their
     unwavering support. I also want to commend the contributions of each OIG employee to our achieve-
     ments during the past 6 months.




     WILLIAM R. BARTON
     Inspector General


     October 31, 1991
               SUMMARY OF OIG PERFORMANCE



OIG ACCOMPLISHMENTS

Total Financial Recommendations .........................................                           $192,644,109

    - Recommendations That Funds Be
      Put to Better U se .......................................................................    $183,699,013

    -Questioned Costs .....................................................................          $8,945,096

Audit Reports Issued ........................................................................           343

Investigative Referrals ....................................................................            244

RESULTS ATTAINED

Savings Achieved (Management Agreements
  and Recoveries) ...............................................................................   $128,853,252

Indictments and Informations ...................................................                        20

Successful Criminal Prosecutions ..........................................                             14

Civil Settlements/Judgments ....................................................                         9

Contractors Suspended/Debarred ..........................................                               44

Employee Actions Taken ..............................................................                   16
                                   FISCAL YEAR 1991 RESULTS
     II                                                                                                     II
     During Fiscal Year 1991, OIG activities resulted in:
          •   698 audit reports.                             •   34 criminal indictments/informations and
                                                                 32 successful prosecutions on criminal mat-
          •   43 implementation reviews of internal audit
                                                                 ters referred.
              reports.
          •   Over $287 million in recommendations that      •   Civil complaints against 13 individuals and
              funds be put to better use and questioned          21 civil settlements or judgments.
              costs.                                         •   2 referrals to other Federal and State activ-
          •   Management decisions to put funds to better        ities for further investigation.
              use of over $224 million.
                                                             •   36 personnel       actions   against    GSA
          •   Management decisions to recover funds, ne-         employees.
              gotiated and court-ordered recoveries, and
              investigative recoveries of $29.5 million.     •   49 contractor suspensions and 81 contractor
                                                                 deba:ments.
          •   579 new investigations        opened    and
              556 cases closed.                              •   467 legislative matters and 220 regulations
                                                                 and directives reviewed.
          •   25 case referrals (52 subjects) accepted for
              criminal prosecution and 9 case referrals      •   134 Hotline calls and letters, 6 GAO refer-
              (18 subjects) accepted for civil litigation.       rals, and 18 other agency referrals.




ii
             OVERVIEW AND FOCUS ON OIG ACTMTIES
II                                                                                                               II
This report, submitted pursuant to the Inspector                •    Ensure physical security surveys are per-
General Act of 1978, as amended, chronicles the ac-                  formed and documented as required.
tivities of the General Services Administration's Of~           •    Perform contractor quality assurance visits
fice of Inspector General. It is the twenty-sixth                    in sufficient detail and frequency to ensure
Report to the Congress since the appointment of                      compliance with contract terms.
GSA's first Inspector General.
                                                                •    Reconcile inventory records for art works in
                                                                     GSA's custody.
Overview
Procurement Activities                                    Prevention Activities
                                                          OIG prevention activities included:
Significant OIG audits and investigations resulted in:
                                                            •       Preaward reviews of 232 contracts with an esti-
     •   $8.4 million to be paid to the Government
                                                                    mated value of $2.6 billion.
         in civil fraud settlements.
                                                            •       Integrity awareness briefings of 590 GSA
     •   A class action suit against a GSA contractor               employees.
         resulting in $6.9 million to be paid to Feder-
         al employees.                                      •       Advisory reviews of 20 lease proposals aimed at
                                                                    heading off potential problems.
     •   Administrative action by GSA under the
         Program Fraud Civil Remedies Act.
     •   Conviction of a fastener company president       Future Focus
         for obstruction of justice.
                                                          In addition to the activities discussed in this report,
     •   Better procedures for obtaining software de-     we have identified several topics for future attention.
         velopment and computer programming serv-         We will discuss our progress in these areas in later
         ices for customer agencies.                      Reports to the Congress.
     •   Successful prosecution of two equipment          Our experience shows that getting recoveries from
         suppliers resulting from employee allega-        contractors involved in defective pricing and price re-
         tions of wrongdoing.                             duction reviews often takes several years. These set-
                                                          tlements are largely determined by how well we do
                                                          our work and the quality of the package we submit to
Agency Operations                                         the Department of Justice. Therefore, we want to
In a series of internal reviews, we advised manage-       identify those instances where earlier coordinated in-
ment of the need to:                                      volvement by our investigators, auditors, and attor-
                                                          neys, with their specialized disciplines, will facilitate
     •   Inform Congress of decisions leading to the
                                                          processing. We are considering alternative methods to
         proposed award of multiple leases under the
                                                          help accelerate the documentation and evidence col-
         same solicitation without prospectus
                                                          lection process, which should lead to quicker crimi-
         approval.
                                                          nal and civil prosecutions and recoveries.
     •   Develop automated procedures to process
         personal property sales receipts.                Last year, we issued our first Consolidated Reports.
                                                          These documents highlighted recurring trends and
     •   Improve elevator maintenance inspections         potential systemic issues within GSA's components
         by providing needed training and ensuring        by drawing observations from audits of component
         more timely correction of deficiencies.          activities over a period of time. This period, we



                                                                                                               iii
issued a Consolidated Report that covered most of the   we are targeting this area for review to ensure that
Agency. We believe that these reports provide man-      these practices do not occur and that controls are in
agement with a valuable perspective on program          place to prevent an unfair procurement environment.
areas. We will continue to issue these documents.
                                                        Through our Quality Management program, we have
Some of the additional areas that we will study in-
                                                        taken steps to focus our efforts on achieving customer
clude cO~.tract administration procedures, inventory
                                                        satisfaction, improving the way we conduct our
ma.I;lagement, and responsiveness to customer agency
                                                        work, and ensuring the involvement of our work
needs.
                                                        force. We are planning quality awareness training for
We have always been concerned about ensuring the        all OIG employees. We are very pleased with the level
integrity of the procurement process. Although we       of commitment and enthusiasm generated by this
have seen no evidence that collusion and other anti-    program, and we look forward to highlighting future
competitive practices are issues in GSA contracting,    successes.




iv
                                            TABLE OF CONTENTS
II                                                                                                                                 II
                                                                                                                            Page

     OVERVIEW AND FOCUS ON OIG ACTIVITIES .............................................                                      111


     ORGANIZATION, STAFFING, AND BUDGET ...............................................                                      1

     PROCUREMENT ACTIVITIES ....................................................................................             2

     AGENCY OPERATIONS ..................................................................................................    4

     PREVENTION ACTIVITIES ...........................................................................................       7

     REVIEW OF LEGISLATION AND REGULATIONS ...............:........................                                          9

     STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS ...................                                                          11

     APPENDICES

     APPENDIX I-SIGNIFICANT AUDITS FROM PRIOR REPORTS .........                                                             16

     APPENDIX ll-AUDIT REPORT REGISTER ......................................................                                19

     APPENDIX m-DELINQUENT DEBTS ................................................................                           39

     APPENDIX IV-REPORTING REQUIREMENTS ............................................                                        40




                                                                                                                                   v
               ORGANIZATION, STAFFING, AND BUDGET
II                                                                                                               II
Pursuant to the Inspector General Act of 1978, an            •   The Office of Administration, a centralized
Office of Inspector General was established within               unit that provides data systems support, and
the General Services Administration on October 1,                handles budgetary, administrative, and per-
1978. As currently configured, the OIG consists of               sonnel matters as well as formulates OIG
six units that junction cooperatively to perform the             comments on proposed regulations and GSA
missions legislated by the Congress.                             policy issuances.
                                                             •   The Quality Management Staff, a newly cre-
                                                                 ated staff that provides leadership and pro-
Organization                                                     motes the total quality process within all
                                                                 OIG components, and coordinates quality
The OIG utilizes a functional organizational struc-              improvement initiatives with other Federal
ture to provide nationwide coverage of GSA programs              entities.
and activities. It consists of:                              •   The Internal Evaluation Staff, an analytical
     •   The Office of Audits, a multidisciplinary               unit reporting directly to the Inspector Gen-
         unit staffed with financial and technical ex-           eral that plans and directs an in-house as-
         perts who provide comprehensive coverage                sessment program, including field office
         of GSA operations (internal or management               appraisals and sensitive reviews of OIG
         audits) as well as of GSA contractors (exter-           operations.
         nal or contract audits). Headquarters directs
         and coordinates the audit program, which is
         performed by fourteen field audit offices.        Office Locations
     •   The Office of Investigations, an investiga-       The OIG is headquartered in Washington, DC, at
         tive unit that manages a nationwide pro-          GSA's Central Office building. Field audit or investi-
         gram to prevent and detect illegal and/or         gations offices are maintained in: Boston, New York,
         improper activities involving GSA pro-            Philadelphia, Atlanta, Chicago, Kansas City, Fort
         grams, operations, and personnel. Head-           Worth, San Francisco, Auburn, Cleveland, Los An-
         quarters coordinates and oversees the             geles, and Washington, DC.
         investigative activity of twelve field investi-
         gations offices.
 •       The Office of Counsel to the Inspector Gen-       Staffing and Budget
         eral, an in-house legal staff that provides le-
                                                           The OIG completed Fiscal Year 1991 with a total on-
         gal advice and assistance to all OIG
                                                           board strength of 438 full-time employees. Perma-
         components. These attorneys also represent
                                                           nent staffing included 240 auditors, 94 investigators,
         the OIG in connection with litigation aris-
                                                           and 7 attorneys.
         ing out of or affecting OIG operations, and
         prepare OIG comments on proposed                  The OIG's approved Fiscal Year 1991 budget was ap-
         legislation.                                      proximately $31 million.




                                                                                                                 1
                            PROCUREMENT ACTIVITIES
II                                                                                                               II
 The GSA is responsible for providing space for almost     $4,442,000 in Civil Settlements
 1 million Federal employees. GSA, therefore, ac-
quires buildings and sites, constructs facilities, and     The Government entered into three civil settlement
leases space as well as contracts for repairs, alter-      agreements, totaling $4,442,000, with Federal sup-
ations, maintenance, and protection of Government-         pliers. The settlement agreements were negotiated by
controlled space. GSA also operates a Government-          representatives of the Department of Justice and the
wide service and supply system. To meet the needs of       GSA OIG. Under the terms of two agreements, two
customer agencies, GSA contracts for billions of dol-      computer equipment manufacturers agreed to pay the
lars worth of equipment, supplies, materials, and          Government $2 million and $1.4 million, respec-
services each year.                                        tively, to settle their potential civil fraud liability.
                                                           The OIG determined that both companies failed to
                                                           fully disclose pricing and discount information to
Significant DIG                                            GSA during contract negotiations.

Accomplishments                                            The third agreement, dated August 22, 1991, pro-
                                                           vided that a computer equipment supplier would pay
                                                           the Government $1,042,000 to settle its potential
$10,950,000 Settlement                                     civil liability under the False Claims Act. This agree-
On June 23, 1991, a relocation company paid the            ment stemmed from an OIG review which disclosed
Government $4 million to settle its civil liability and    that the firm sold items to its commercial customers
agreed to pay $6,950,000 to the plaintiffs in a class      at discounts greater than those disclosed and offered
action lawsuit alleging breach of contract and other       to GSA during contract negotiations. GSA contract-
violations in connection with a GSA contract involv-       ing officials relied upon these data when negotiating
ing Federal employees. Approximately 2,000 Federal         the contracts and, as a result, Government agencies
                                                           paid higher prices.
employees who were relocated from 24 western and
central states are eligible to share in the class action
settlement.
Both actions resulted from an OIG review which dis-
closed that the company, which was required to offer
                                                           Program Fraud Civil Remedies Act
to purchase employees' homes at prices based on in-        GSA has obtained its first recovery under the Program
dependent appraisals, engaged in a pattern of miscon-      Fraud Civil Remedies Act. Under the Act, Federal
duct intended to compromise the independence of the        agencies can institute administrative proceedings to
appraisal process and, thereby, lower the prices the       recover damages and penalties from a person or entity
company would have to pay for the homes. GSA ter-          that presents false claims or makes false statements
minated the contract for default and initiated an in-      to the Government. Agencies can recover double the
vestigation by an interdepartmental task force which       Government's damages and penalties of up to $5,000
included representatives from the Departments of Ag-       per violation.
riculture and Interior OIGs, the Department of Jus-
                                                           On July 11, 1991, a chain manufacturer agreed to pay
tice Civil Division, and the U. S. Attorney's Office.      the Government $20,000 to settle an administrative
The Department of Justice filed a civil suit in October    action initiated against the company and owner for
1989, and a month later attorneys for the plaintiffs       submitting false certified statements and false
filed a class action suit against the company seeking      claims. The OIG initiated actions under the Act after
monetary relief for those employees harmed by the          investigating allegations that the company and owner
company's actions.                                         were aware that testing equipment was not properly




2
calibrated, and there was no basis for certifying         Our June 28, 1991 report recommended that the As-
that shipped materials conformed to contract              sistant Regional Administrator, Information Re-
specifications.                                           sources Management Service, ensure that:
                                                            •   Task orders not be split to avoid exceeding
                                                                maximum order limitations.
Obstruction of Justice Conviction
In September 1991 the president of a fastener com-          •   Statements of work are reviewed by GSA of-
                                                                ficials and approvals are obtained from cli-
pany was convicted of obstruction of justice for fur-
                                                                ent agencies.
nishing a fabricated document in response to an OIG
subpoena. In addition, the company and the president        •   Independent Government estimates are
pled guilty to mail fraud.                                      more effectively used in pricing and nego-
                                                                tiating task orders.
These actions stemmed from an allegation received
from a GSA quality assurance specialist indicating        The Regional Administrator agreed with the rec-
that the company was not complying with Buy Amer-         ommendations in the report. The audit is still in
ican Act requirements. Investigation by the GSA OlG       the resolution process.
and U. S. Customs Service revealed that, from Janu-
ary 1984 to about December 1987, the firm supplied
foreign-made fasteners and falsely certified that the
                                                          Employee Allegations Result in
company had complied with all statutory require-          Convictions
ments. The firm also failed to mark the country of        A joint investigation conducted by the GSA OIG and
origin on repackaged fasteners manufactured outside       the Federal Bureau of Investigation was initiated
of the United States as required by the Tariff Act of     when a GSA employee alleged that a telephone equip-
1930.                                                     ment company was providing substandard equipment
                                                          under its Government contract. The investigators
                                                          found that the company installed used, refurbished,
                                                          or obsolete telephone equipment rather than contrac-
Contract Services Procurements                            tually required new telephone equipment. The con-
The Contract Services Program was established to as-      victed telephone equipment supplier was fined
sist GSA's client agencies in obtaining automated         $250,000, ordered to make restitution of $58,917, and
data processing services, such as software develop-       to pay $200 in court costs after pleading guilty to
ment and computer programming. Under this pro-            charges of submitting a fraudulent claim to the
gram, GSA awards contracts for these services and         Government.
assists agencies in defining their information technol-
                                                          Another investigation was initiated after a GSA offi-
ogy needs and negotiating task orders with the
                                                          cial informed us that the company had billed GSA for
contractors.                                              the shipment of a lathe and milling machine but
An OIG regional review disclosed the need to              failed to provide documentation that the equipment
strengthen controls in the development and pricing of     was delivered. The investigation, performed with
task orders. In the development area, program person-     other Federal agencies, determined that an industrial
nel did not always examine task orders to determine       equipment supplier submitted falsified delivery in-
if they were part of a larger procurement, split into     voices by listing trucking firms which had no record
several task orders to avoid a contract maximum           of delivering any materials for the company. The
order limitation. Further, there was no documenta-        company's president attempted to conceal the actual
tion to confirm that contracting officers had reviewed    source of the equipment by removing the foreign-
the statements of work and obtained client agency         made country of origin manufacturing labels. The
approvals prior to task order awards. In the pricing      president was sentenced to 18 months in prison and
area, program personnel were not effectively using        placed on probation for 36 months. Both the presi-
the independent Government cost estimates for set-        dent and the company were ordered to pay $31,756 in
ting prenegotiation price objectives and for evaluating   restitution. In addition, the company was fined
contractors' price proposals.                             $10,000.




                                                                                                               3
                                AGENCY OPERATIONS
II                                                                                                            II
The General Services Administration is a central         area was fairly restricted and effectively the same for
management agency that sets Federal policy in such       each request, that the value of individual leases fell
areas as Federal procurement, real property manage-      just below the prospectus threshold, and that some of
ment, and telecommunications. GSA also manages           the leases were for the same building and had exactly
diversified Government operations involving build-       the same starting and ending dates.
ings management, supply facilities, real and personal
                                                         Our July I, 1991 report recommended that the Re-
property disposals and sales, data processing, and mo-   gional Administrator:
tor vehicle and travel management. In addition, GSA
manages over 115 accounting funds and provides             •   Inform Congress of the decisions made and
cross-servicing support for client agencies.                   actions taken regarding the leasing process
                                                               and GSA's planned actions.
                                                           •   Make no additional awards until Congress
Significant OIG                                                has an opportunity to consider GSA's
Accomplishments                                                actions.
                                                         The Regional Administrator has implemented the
Proposed Lease Review                                    recommendations contained in the draft report. Upon
                                                         reviewing the information developed by the OlG, the
This period the OIG reviewed a proposed leasing ac-      Chairman, House Subcommittee on Public Buildings
tion and found that it did not comply with the spirit    and Grounds, determined that GSA should consoli-
and intent of the requirement for advance Congres-       date the space requests and submit a lease prospectus
sional approval when annual lease costs exceed           to Congress.
$1.5 million.
Over an 8 month period, a Federal agency submit-
ted 12 separate requests to GSA for a total of over
300,000 square feet of space. The agency's space         Personal Property Sales
needs were urgent and it requested early occupancy.      The OIG evaluated procedures for processing sales
GSA proceeded with the leasing project using one so-     proceeds for personal property items, such as used
licitation resulting in eight proposed leases in three   office equipment and vehicles. Under the personal
different buildings. Five of the proposed leases were    property program, GSA sells items no longer needed
located in the same building, representing 90 percent    by Federal agencies, collects proceeds, and transfers
of the building's office space, with a combined annual   funds to the appropriate Federal accounts. During fis-
rental of about $6.8 million. GSA officials deter-       cal Year 1990, the total proceeds for the program were
mined that the separate leasing actions were not sub-    approximately $142 million.
ject to the prospectus approval process because,
among other reasons, the space requests were submit-     We found that the accounting procedures used to
ted independently of one another, and no single pro-     process proceeds assured that funds were properly
posed lease exceeded the $1.5 million prospectus         collected; however, errors were made when transfer-
threshold.                                               ring funds from GSA to other Federal accounts. For
                                                         example, data needed to transfer the proceeds were
Our review concluded that GSA's leasing action gave      entered erroneously into GSA's accounting system or
at least the appearance of a divided procurement, that   not entered at all. We attributed these errors to the
the approach used violated at least the spirit and in-   procedures used and the significant volume of pro-
tent of the Public Buildings Act, and that the action    ceeds processed.
could be interpreted as an attempt to avoid the Con-
gressional prospectus approval process. Our conclu-      We also found that tne processing of these proceeds
sion was based, in part, upon the fact that the space    was impacted by delays and errors occurring in the
requests came from the same agency, the delineated       regional sales offices. For example, some sales


4
transmittals were not issued in a timely fashion and      additional deficiencies to develop and possibly go
were not accurate, and accounting documents were          undetected.
not always complete or correct. Alternative pro-
cedures need to be developed, including automation        Our two reports, dated August 22, and August 30,
of the sales process, that will provide greater control   1991, respectively, directed several recommendations
over sales transactions and improve the accuracy and      to the Regional Administrators to ensure that:
timeliness of practices used for processing proceeds.       •   Elevator inspectors receive training needed
                                                                to properly inspect and monitor elevator
The April 2, 1991 report directed recommendations
                                                                maintenance contractors.
to the Acting Comptrollerj the Commissioner, Feder-
al Supply Servicej and Acting Assistant Regional Ad-        •   Required inspections are performed, and
ministrator for Administration. These included                  identified deficiencies are corrected in a
recommendations to:                                             timely manner.
  •   Develop automated procedures to process               •   Contract terms are amended to require
      personal property sales proceeds.                         closeout inspections closer to the final con-
                                                                tract completion date.
  •   Establish controls to ensure information in
      the sales system is current, accurate, and          The Regional Administrators agreed with the intent
      completej and sales transmittals are for-           of the recommendations. The audit is still in the
      warded to the finance office in a timely            resolution process.
      manner.
Responsive action plans were provided for imple-
menting the report recommendations.                       Physical Security
                                                          The OIG completed two regional reviews of the phys-
                                                          ical security survey program. Under the program, cer-
Elevator Maintenance                                      tified security specialists assess the physical security
This period, the OIG reviewed the administration of       of Federally owned and leased buildings every other
elevator maintenance contracts in two regional of-        year, and conduct security surveys of prospective
fices. Our reviews disclosed instances where contrac-     lease locations before contracts are awarded. The re-
ted maintenance services were not performed,              gions reviewed are responsible for the adequacy of
inspections were not always conducted, and deficien-      physical security in 2,840 of GSA's 6,800 buildings.
cies were not always corrected in a timely manner.        In one region, physical security surveys that are re-
Consequently, GSA may have paid for services not          quired every other year were missing for 35 of the
received and exposed the general public to unneces-       64 buildings reviewed, and prospective lease surveys
sary risk of mechanical failure.                          were not performed for 57 of the 69 locations evalu-
For example, we examined 43 elevators in three dif-       ated. In the other region, security specialists had been
ferent buildings and found that routine maintenance       directed to perform all prospective lease surveys, in-
service was not completed. The GSA elevator mainte-       cluding those under 10,000 square feet, thereby ne-
nance inspector had received no formal elevator           gating economies and efficiencies that could be
maintenance training, and, at some locations, there       gained by having trained realty specialists perform
was no copy of the maintenance contract. We also          some of these surveys.
found that two identified maintenance deficiencies,       In our reports, dated September 4, and September 5,
with corrections costing about $93,600, remained un-      1991, we recommended specific actions to correct
corrected for up to 5 months.                             identified deficiencies. These included recommenda-
In both regions, we found instances where closeout        tions that the cognizant Assistant Regional Adminis-
inspections were not performed. In one instance,          trator, Public Buildings Service, ensure that:
GSA could not determine if repair problems, costing
                                                            •   Physical security surveys are performed and
over $55,000 to correct, should have been the respon-           documented as required.
sibility of the previous contractor. Finally, we found
that som~~ contracts allowed closeout inspections           •   Realty specialists perform surveys on pro-
to be performed as much as 6 months before the                  posed leases when appropriate and cost
final contract completion date, thereby allowing                effective.



                                                                                                                5
    The Regional Administrators agreed with the recom-        Art Conservation
    mendations in the draft reports. The audit is still in
    the resolution process.
                                                             The Federal Property and Administrative Services Act
                                                             of 1949 established GSA as the custodian of art works
    Quality Assurance                                        acquired by the Federal Government in the 1930's.
                                                             Since that time, the Agency's role, through the Art-
An OIG evaluation of a regional Quality Approved
                                                             in-Architecture program, has expanded to include re-
Manufacturers Agreement program disclosed that the
                                                             sponsibility for maintaining the Government's art in-
program has improved since our last review in 1984.
                                                             ventory and implementing a conservation program
The Quality Approved Manufacturers Agreement pro-
                                                             for the art works.
gram requires that supply contractors maintain quali-
ty control systems that meet Federal standards. GSA          An OIG review of one GSA region's art conservation
quality assurance specialists periodically monitor           program disclosed that the inventory records listing
materials through visits to contractor facilities. Con-      the art works in Federal buildings were not in agree-
tractors participating in the regional program shipped       ment with the actual art works located in the build-
stock valued at over $145 million in Fiscal Year 1990.       ings. We attempted to verify the art works in seven
                                                             Federal buildings and three museums and, while
Although most of the supply items inspected were of
                                                             most art works were accounted for, we found discrep-
satisfactory quality, not all items inspected fully met
                                                             ancies in three buildings. For example, in one build-
contract requirements. Our review of 49 stock items
                                                             ing, five paintings listed on the inventory records
identified 8 items that, while functional, did not
                                                             could not be located, and in two buildings, 15 paint-
meet contract finish, marking, or packaging specifi-
                                                             ings were found which were not listed on the inven-
cations. The review also disclosed that quality assur-
                                                             tory records. In addition, the review revealed
ance specialists did not always make contractor
                                                             discrepancies between the regional and centralized
surveillance visits at the established frequency. We
                                                             inventory records.
noted that surveillance visits need to be performed in
sufficient detail to verify that products produced           We also reported that, while the region requested
meet contract requirements.                                  $330,000 in Fiscal Years 1989 and 1990 for specific
                                                             conservation work, it expended only $11,060. Since
Our June 14, 1991 report directed five recommenda-
                                                             conservation funds were not specifically identified
tions to the Assistant Regional Administrator, Federal
                                                             when funding was authorized for the region, funds
Supply Service, to correct identified deficiencies.
                                                             were used by management for building repair pro-
These included recommendations requiring regional
                                                             jects. Deferring needed conservation work risks a loss
officials to ensure that:
                                                             to our cultural heritage.
     •   Surveillance visits are performed in suffi-
                                                             The April 11, 1991 report directed six recommenda-
         cient detail to verify that products comply
                                                             tions to the Assistant Regional Administrator, Public
         with contract requirements.
                                                             Buildings Service, to correct identified deficiencies.
     •   Guidance is provided to all quality assur-          These included recommendations to:
         ance personnel as to the established frequen-
                                                               •   Attempt to locate the missing paintings.
         cy of surveillance visits.
                                                               •   Reconcile the inventory records with the art
    •    Quality assurance surveillance visits are
                                                                   works in GSA's custody.
         performed in accordance with established
         schedules.                                            •   Adopt conservation practices which include
                                                                   the timely use of conservation funds.
The Regional Administrator advised that manage-
ment had taken action to comply with the recom-              The Regional Administrator provided responsive ac-
mendations in the draft report. The audit is still in        tion  plans   for   implementing      the   report
the resolution process.                                      recommendations.




6
                              PREVENTION ACTIVITIES
II                                                                                                                 II
Consolidated Reporting                                     contracting officer that a firm did not submit accurate
                                                           and complete sales data. Higher discounts, offered to
This period, we issued our first Agency-wide consoli-      dealers, national account holders, and non-Federal
dated report focusing on broad systemic concerns           government customers, were not disclosed. In addi-
brought to light by audit activities. This type of roll-   tion, several of the offered products did not have suffi-
up reporting helps identify potential vulnerabilities      cient non-Federal sales to determine whether
and operational issues that may not be revealed by         proposed prices were fair and reasonable. Finally, one
individual audits, but collectively indicate a need for    report advised the contracting officer that state and
management attention. The report entitled, "OIG            local government customers were offered discounts
Audit Highlights of GSA Services and Staff Offices         that exceeded those offered to GSA even though the
Reviewed in Fiscal Year 1990," consolidates the re-        Federal Government was the firm's largest customer.
sults of all audits by program area. The comprehen-        The report also advised the contracting officer that
sive report serves to alert management to potential        the firm did not submit complete information on a
risk areas for consideration in preparing the Federal      pricing policy that allowed discounts to be based
Managers' Financial Integrity Act assessments for          upon anticipated sales rather than order size.
Fiscal Year 1991, and to provide GSA officials with an
analysis of audit coverage within the Agency.
                                                           Other Contracts
                                                           The OIG performed three significant audits involving
Significant Preaward Audits                                a solicitation for shelving, an architectural and engi-
                                                           neering services proposal, and a claim for increased
The OIG's preaward audit program provides informa-         costs. Details on the three audits, with a total audited
tion to contracting officers for use in negotiating con-   value of $62.3 million, and recommended adjustment
tracts. The pre-decisional, advisory nature of             of over $9.9 million, are as follows:
preaward audits distinguishes them from other au-
dits. This period, the OIG performed preaward audits         •   The OIG evaluated a cost or pricing proposal
of 232 contracts with an estimated value of $2.6 bil-            for providing fixed and movable storage
lion. The audit reports contained over $183 million in           shelving. The audit report advised the con-
financial recommendations.                                       tracting officer that some of the cost or pric-
                                                                 ing data contained in the firm's proposal
                                                                 were unsupported or overstated. Based on
Multiple Award Schedule Contracts                                these findings, the auditors recommended
This period, the OIG performed nine preaward audits              adjustments in the following categories:
involving multiple award schedule contracts for fur-             labor costs, travel, and project service costs.
niture systems. Total estimated Government-wide              •   The OIG evaluated a pricing proposal sub-
sales under these contracts were $767 million over a             mitted for architectural and engineering
5 year period. Based on our findings, the auditors               services related to the design of a Federal
re::ommended that $77.7 million in funds be put to               building. The audit report advised the con-
bcttcT use.                                                      tracting officer that certain proposed costs
The OIG evaluated discount schedule and marketing                for salaries, overhead, and other direct costs
data submitted in rt';ponse to GSA's solicitation for            were overstated or unsupported. Based on
furniture systems afld reported the following notable            these findings, the auditors recommended
conditions. One audit advised the contracting officer            cost reductions to the proposed contract.
that the firm offered higher discounts to commercial         •   The OIG audited a claim for increased costs
customers than disclosed in the offer to GSA and did             related to the construction of a Federal
not disclose a significant concession offered to its             building. The contractor alleged that
commercial customers. Another audit advised the                  Government-caused delays resulted in the


                                                                                                                   7
      increased costs. The audit report advised the             and for reinforcing employees' roles in helping to en-
      contracting officer that costs contained in               sure the integrity of Agency operations. Several sig-
      the claim were overstated and unsupported                 nificant OIG accomplishments reported this period
      and recommended an adjustment to the                      resulted from allegations received from GSA
      claimed amount. Adjustments were made in                  employees.
      the following categories: storage and han-
                                                                This period, we presented 26 briefings which were
      dling costs, interest expenses, and overhead
                                                                attended by 590 Central Office and regional employ-
      allocations.
                                                                ees. These briefings explain the statutory mission of
                                                                the OIG and the methods available for reporting
                                                                suspected instances of wrongdoing. In addition,
Advisory Lease Reviews                                          through case studies and slides, the briefings expose
The OIG's program for reviewing leases prior to                 GSA employees to actual instances of white collar
award provides front-end assurance that GSA is ad-              crime in GSA and other Federal agencies.
hering to regulations and procedures before awarding
selected leases involving annual rentals in excess of
$400,000. These reviews, although advisory in nature            Hotline
and only selectively performed due to workload con-
straints, promote opportunities for economy and effi-           The Hotline is another part of our prevention pro-
ciency in the leasing area, and the avoidance of                gram. It provides an avenue for concerned employees
problems before they occur.                                     to report suspected wrongdoing. Hotline posters lo-
                                                                cated in GSA-controlled buildings as well as Hotline
The program achieved the following results during               brochures encourage employees to use the Hotline.
the reporting period:
                                                                During this reporting period, we received 70 Hotline
    Lease proposals submitted for review....... 57              calls and letters. Of these, 56 complaints warranted
    Lease proposals reviewed ............................. 20   further action. We also received 3 referrals from GAO
    Lease proposals with deficiencies .............. 14         and 13 referrals from other agenciesj 10 of these refer-
    Lease proposals with no deficiencies ........ 6             rals required further action.
Deficiencies identified through OIG advisory lease re-
views related to: incomplete lease files, proposed
space needs not adequately justified, inconsistent              Implementation Reviews
rent schedules, lessor or property owner not clearly
identified, and a waiver not obtained when the pro-             The OIG performs independent reviews of implemen-
posed annual rental exceeded the appraised value of             tation actions, on a test basis, to ensure that corrective
the leased space.                                               actions are being accomplished according to estab-
                                                                lished milestones. This period, the OIG performed
                                                                30 implementation reviews. In 25 of these cases, man-
Integrity Awareness                                             agement was successfully implementing the recom-
                                                                mendations. In the other 5 instances, recommenda-
Integrity Awareness Briefings comprise the OIG's pri-           tions were not being implemented in accordance with
mary vehicle for educating employees on their re-               the established action plansj we advised management
sponsibilities for the prevention of fraud and abuse,           of the need to revise the action plans.




8
           REVIEW OF LEGISLATION AND REGULATIONS
II                                                                                                               II
During this period, the OIG reviewed 318 legislative            award schedule program as a method of
matters and lO4 proposed regulations and directives.            procurement. By reducing the program to an
The OIG provided significant comments on the fol-               approved list of vendors and requiring rene-
lowing items:                                                   gotiation on all orders exceeding $1,000, we
                                                                believe that the proposed provisions would
     •   Standards of Conduct for Employees of the
                                                                not provide any incentive for contractors to
         Executive Branch (Proposed Rule). The pro-
                                                                offer the Government the lowest prices
         posed rule would establish a new set of
                                                                when responding to solicitations. In our
         Government-wide standards of conduct. We
                                                                opinion, the bill reflected a serious misun-
         opposed sections of the standards which,
                                                                derstanding of the role of GSA in negotiating
         among other things, permit gifts to an em-
                                                                multiple award schedule contracts. Under
         ployee from prohibited sources, restrict em-
                                                                the existing program, GSA seeks to negoti-
         ployee participation in the activities ~f              ate the best deal for the Government given
         professional associations or similar orgam-            the vast purchasing power of the Federal sec-
         zations, and extend the prohibition against
                                                                tor. Moreover, we maintained that permit-
         teaching, speaking or writing for compensa-            ting renegotiation of millions of purchase
         tion about the activities of an employee's             orders annually would dramatically increase
         agency to not only Presidential appointees             procurement efforts and paperwork require-
         but all employees.                                     ments for both the Government and private
         In particular, we opposed that section wh~ch           sector participants. Accordingly, we ques-
         allows the acceptance of meals and gifts               tioned the cost effectiveness of the proposed
         from a "prohibited source." We believe                 renegotiation requirement.
         there should be a clear ban on all gifts having
                                                            •   False Claims Technical Amendment Act of
         greater than a truly nominal value from pro-
                                                                1991; Qui Tam Decision. The qui tam provi-
         hibited sources to preserve the integrity of
                                                                sion in the False Claims Act allows individ-
         the Government's programs and operations.
                                                                uals to bring suit, on behalf of themselves
         In addition, we opposed the outright general
                                                                and the Federal Government, against con-
         prohibition on the use of official time fO.r the
                                                                tractors who submit false claims or false
         internal or business affairs of a professIOnal
                                                                statements to the Government. These indi-
         association. We believe that this prohibition
                                                                viduals are entitled to a percentage of any
         would dissuade Government employees
                                                                subsequent recoveries. We supported the
         from participating in professional associa-
                                                                proposed amendments which would bar pre-
         tion activities, many of which serve as .a             sent and former Government employees
         principal source of continui~g education. F~­          from bringing qui tam actions using infor-
         nally, we opposed the extensIOn of the p~0.h1-
                                                                mation obtained in the course of their em-
         bition against teaching, speaking or wnt~ng
                                                                ployment. We noted that conflict of interest
         for compensation as unnecessary and 111-
                                                                problems might arise if auditors, investiga-
         advised. We believe these communication
                                                                tors, contracting officers, or other Govern-
         activities should be treated the same as any
                                                                ment employees succumb to the temptation
         other outside activities which receive scru-
                                                                to file a qui tam action prior to reporting
         tiny for potential conflicts of interests.
                                                                their potential false claims finding to their
     •   H. R. 3162, Multiple Award Schedule Pro-               supervisors. This legislation will preclude
         curement Improvements Act of 1991. We                  such potential conflicts of interest, and will
         opposed this bill because it would eli.mi-             avoid circumstances that could otherwise
         nate the effectiveness of the mult1ple                 compromise audits and investigations.




                                                                                                                 9
     •   Draft of GSA Order IRM P 2100, Protection          Administrative Services Act of 1949, To
         of Microcomputers from Malicious Soft-             Amend Laws Relating to Federal Procure-
         ware; Use of Public Domain Software and           ment, and for Other Purposes. We opposed
         Shareware. We disagreed with the proposed          enactment of this bill, intended to encour-
         policy that no GSA user may download soft-         age the purchase of "commercial" or "off-
         ware from an electronic bulletin board. We         the-shelf" items through simplified Govern-
         stated that the benefits of electronic bulletin    ment contracting procedures. We asserted
         boards, with access properly controlled and        that the proposed elimination or weakening
         software carefully scanned, justified their       of disclosure requirements for cost and pric-
         use. We, therefore, suggested that the policy     ing data would result in the loss of impor-
         concerning electronic bulletin boards be re-      tant safeguards in the Government's
         vised to allow access using standalone            procurement process. We noted that our ex-
         computers which have up-to-date protection        perience with Government procurement
         software to check for viruses. We also shared     programs has clearly demonstrated that
         that our experience using low level format-       even when dealing with commercial items
         ting to sanitize a virus, as recommended in       with contract negotiations based largely on
         the directive, was not a good method be-          established catalog or market prices, certain
         cause some malicious software activates           data and disclosure requirements are essen-
         when the disk is formatted.                       tial to ensure that the Government is treated
                                                           fairly. We, therefore, expressed concern that
                                                           this bill would, in part, lead to further po-
 •       H. R. 3161, To Authorize Functions and Ac-        tential for fraud and abuse in Government
         tivities Under the Federal Property and           contracting.




10
     STATISTICAL SUMMARY OF OIG ACCOMPliSHMENTS

Audit Reports Issued                                                                    Management Decisions on Audit
                                                                                        Reports
The OIG issued 343 audit reports, including 1 audit                                     Table 1 summarizes the status of the universe of
performed by the orG that was issued to another                                         audits requiring management decisions during this
agency and 22 audits performed for the orG by anoth-                                    period, as well as the status of those audits as of
er agency. The 343 reports contained financial recom-                                   September 30, 1991. Eighteen reports more than
mendations      totaling $192,644,109,      including                                   6 months old were awaiting management decisions as
$183,699,013 in recommendations that funds be put                                       of September 30, 1991; but all of them were preaward
to better use and $8,945,096 in questioned costs. Due                                   audits, which are not subject to the 6 month manage-
to GSA's mission of procuring supplies and services                                     ment decision requirement. Table 1 does not include
for the Government, most of the recommendations                                         1 report issued to another agency this period
that funds be put to better use were applicable to                                      and 29 reports excluded from the management deci-
funds other agencies would expend under GSA's                                           sion process because they pertain to ongoing
Government-wide contracts.                                                              investigations.



                                            Table 1. Management Decisions on DIG Audits
                                                                                              Reports With               Total
                                                                              No. of            Financial              Financial
                                                                              Reports       Recommendations        Recommendations
     For which no management decision
       had been made as of 4/1/91

            Less than 6 months old .................... .                       141                 109               $ 57,346,529
            More than 6 months old ................. ..                          39                  35                 10,574,825

     Reports issued this period ...................... ..                      342                 190                 192,644,109
     Total .............................................................. .    522                 334                $260,565,463

     For which a management decision was
       made during the reporting period

        Issued prior periods .......................... ..                     162                 129                $ 61,698,873
        Issued current period ....................... ..                       186                  84                  69,375,359
    Total .............................................................. .     348                 213                $131,074,232

     For which no management decision
       had been made as of 9/30/91

        Less than 6 months old .................... .                          156                  106               $123,268,750
        More than 6 months old .................. .                             18                   15                  6,222,481
    Total ............................................................. ..     174                  121               $129,491,231




                                                                                                                                         11
 Management Decisions on Audit                                                                          Tables 2 and 3 present the audits identified in Table 1
 Reports With Financial                                                                                 as containing financial recommendations by category
                                                                                                        (funds to be put to better use or questioned costs).
 Recommendations                                                                                        Some of the reports contained recommendations that
                                                                                                        funds be put to better use as well as questioned costs,
                                                                                                        and these reports are therefore included in both
                                                                                                        Tables 2 and 3.



                                        Table 2. Management Decisions on OIG Audits With
                                         Recommendations That Funds Be Put to Better Use
                                                                                                                       No. of            Financial
                                                                                                                       Reports       Recommendations
      For which no management decision
        had been made as of 4/1/91

             Less than 6 months old ............................................................ .                       92             $ 55,898,521
             More than 6 months old ......................................................... ..                         30                5,441,774

     Reports issued this period .............................................................. ..                       170             183,699,013
     Total ...................................................................................................... ..    292            $245,039,308
     For which a management decision was
       made during the reporting period

             Recommendations agreed to by
             management based on proposed

                 -management action .......................................................... .                                       $113,150,881
                 -legislative action .............................................................. ..

         Recommendations not agreed to
         by management .......................................................................... .                                      lO,882,349
     Total ...................................................................................................... ..    183            $124,033,230*
     For which no management decision
       had been made as of 9/30/91

         Less than 6 months old ........................................................... ..                           94            $117,090,242
         More than 6 months old ......................................................... ..                             15               6,222,481
     Total ....................................................................................................... .    109            $123,312,723
     •Includes $2,306,645 that management decided to seek that exceeded recommended amounts.




12
                                                         Table 3. Management Decisions on
                                                         OIG Audits With Questioned Costs
                                                                         No. of             Questioned              Unsupported
                                                                         Reports              Costs                    Costs
      For which no ma.Llagement decision
        had been made as of 4/1/91

             Less than 6 months old .............. ..                      18               $   1,448,008             $
             More than 6 months old ............ ..                         7                   5,133,051

     Reports issued this period ................... .                      21                 8,945,096
     Total ......................................................... .     46               $15,526,155               $

      For which a management decision
        was made during the reporting pe-
        riod

         Disallowed costs ......................... ..                                      $ 7,985,818*              $
         Costs not disallowed .................. ..                                           1,393,681
     Total ......................................................... .     33               $ 9,379,499**             $

     For which no management decision
       had been made as of 9130191

         Less than 6 months old ............... .                          13               $ 6,178,508               $
         More than 6 months old ............ ..
     Total ......................................................... .     13               $6,178,508                $
        *$3,309,718 of this amount was recovered in civil settlements, as reported in Table 5.
      * *Includes $31,852 that management decided to seek that exceeded recommended amounts.



Investigative Workload                                                             Referrals
                                                                                   The OIG makes criminal referrals to the Department
                                                                                   of Justice or other authorities for prosecutive consid-
The OIG opened 328 investigative cases and closed                                  eration and civil referrals to the Civil Division of the
311 cases. These totals include 106 complaints or al-                              Department of Justice or a U.S. Attorney for litigation
legations the OIG received and evaluated from                                      consideration. The OIG also makes administrative
sources other than the Hotline that involved GSA                                   referrals to GSA officials on cases disclosing non-
employees and programs. Based upon our analyses of                                 prosecutable wrongdoing on the part of GSA employ-
these complaints and allegations, OIG investigations                               ees, contractors, or private individuals doing business
were not warranted.                                                                with the Government.




                                                                                                                                        13
                                                           Table 4. Summary of OIG Referrals
                           Type of Referral                                                       Cases                          Subjects

      Criminal ................................................................. .                  22                              52
      Civil ......................................................................... .              9                              13
      Administrative .................................................... ..                       134                             179
      Total ........................................................................ .             165                             244


In addition, the OIG made 1 referral to another Feder-                                    11 contractors, and took personnel action against
al activity for further investigation or other action                                     16 employees.
and 60 referrals to GSA officials for informational
purposes only.
                                                                                          Monetary Results
Actions on OIG Referrals                                                                  Table 5 presents the amounts determined to be owed
                                                                                          the Government as a result of criminal and civil ac-
Based on these and prior referrals, 8 cases (20 sub-
                                                                                          tions. The amounts do not necessarily reflect actual
jects) were accepted for criminal prosecution and
                                                                                          monetary recoveries.
2 cases (5 subjects) were accepted for civil litigation.
Criminal cases originating from OIG referrals re-                                         In addition, the OIG identified for recovery
sulted in 20 indictments/informations and 14 suc-                                         $1,748,056 in money andlor property during the
cessful prosecutions. OIG civil referrals resulted in                                     course of its investigations. Also, as a result of an
7 civil fraud complaints and 9 settlements or judg-                                       OIG review, a class action suit was brought against a
ments. Based on OIG administrative referrals,                                             GSA contractor resulting in $6,950,000 to be paid to
management debarred 33 contractors, suspended                                             harmed Federal employees.



                                                      Table 5. Criminal and Civil Recoveries
                                                                                                   Criminal                     Civil

     Fines and Penalties ............................................. ..                          $334,025                  $4,000,000
     Settlements or Judgments ................................. .                                                             4,760,500*
     Restitutions ........................................................... .                     183,690
     Total ....................................................................... ..              $517,715                  $8,760,500
       * This amount includes $3,309,718 reportable pursuant to Section 5 (a) (8) of the Inspector General
     Act as management decisions to disallow costs. See Table 3.




14
, APPENDICES
       APPENDIX I-SIGNIFICANT AUDITS FROM PRIOR REPORTS

Under the Agency's audit management decision pro-         Safety Concerns
cess, GSA's Office of Administration, Office of Man-
agement Controls and Evaluation, is responsible for       Period First Reported: October 1, 1990 to March 31,
tracking implementation of audit recommendations          1991
after a management decision has been reached. That        This review disclosed that improved controls over
office furnished the following status information.        safety and environmental surveys were necessary.
Sixteen audits highlighted in prior Reports to the        The report contained two recommendations; one has
Congress have not been fully implemented; all are         been implemented.
being implemented in accordance with currently es-        The remaining recommendation involves conducting
tablished milestones.                                     safety and environmental surveys on leased buildings
                                                          and monitoring cases until deficiencies are resolved.
                                                          It is scheduled for completion in April 1992.
Contingency Planning for Computer
Systems                                                   Relocation of Household Goods
Period First Reported: October 1. 1990 to March 31,       Period First Reported: October 1, 1990 to March 31,
1991                                                      1991
This review identified the need to improve contin-        This review identified the need to improve the opera-
gency plans for computer systems in the event of          tions of the Household Goods Traffic Management
emergency situations. The report contained one rec-       Program. The report contained five recommenda-
ommendation; it has not yet been implemented.             tions; four have been implemented.
This recommendation requires an annual review of          The remaining recommendation involves requiring
computer system security documentation and a re-          agencies to submit carrier evaluation forms in a
port to the head of the appropriate service of any non-   timely manner and establishing procedures to furnish
compliance. It is scheduled for completion by August      performance data to carriers. It is scheduled for com-
1992.                                                     pletion in March 1992.


                                                          Quality Assurance
Surplus Property Program                                  Period First Reported: October 1, 1990 to March 31,
Period First Reported: October 1, 1990 to March 31.       1991
1991
                                                          This regional review of automated information sys-
Two OIG reviews at state agencies identified the need     tems development disclosed that these projects need
to improve controls to properly account for all           to be developed according to quality assurance and
surplus property received from the Government. One        systems development procedures. The report con-
report is fully implemented as of September 30, 1991.     tained two recommendations; one has been
The remaining report contained six recommenda-            implemented.
tions; five have been implemented.
                                                          The remaining recommendation, which requires an
The remaining recommendation involves accounting          independent review and approval by quality assur-
for lost property or compensating the Government for      ance staff of planning documents for all major sys-
loss. Full implementation is scheduled for January        tems development projects, is scheduled for
1992.                                                     completion in March 1992.




16
Supply Center Contract                                    One of the remaining four recommendations requires
                                                          the development of policies and procedures for the
Period First Reported: October 1, 1990 to March 31,       rent exemption process. Another recommendation re-
1991                                                      quires a periodic review and recertification of all rent
This review revealed that GSA needed to improve           exemptions. The remaining two recommendations
both its administration of a commercial supply center     involve billings for rent exemptions granted without
contract and the methods for evaluating contractor        adequate justification. Implementation is scheduled
versus Government performance. The report con-            for various dates between October 1991 and Decem-
tained five recommendations; four have been               ber 1991.
implemented.
The remaining recommendation involves obtaining
                                                          Fire Safety
comparative pricing information. Implementation of        Period First Reported: October 1, 1989 to March 31,
this recommendation is awaiting a decision, sched-        1990
uled for November 1992, regarding the future use of
                                                          A series of eight OIG reviews identified the need to
contractors to operate supply centers.
                                                          improve the monitoring of fire safety conditions at
                                                          Federal facilities. Seven reports were fully imple-
Multiple Award Schedule Price Lists                       mented as of September 30, 1991. The remaining re-
Period First Reported: April 1, 1990 to September 30,     port contained eight recommendations; seven have
1990                                                      been implemented.
This review disclosed that refunds should be obtained     The remaining recommendation requires the perfor-
from contractors who distributed inaccurate multiple      mance of risk assessments. Full implementation is
award schedule price lists to Federal customers, re-      scheduled for May 1992.
sulting in Federal purchasers paying higher prices.
The report contained four recommendations; three          Administration of Guard Service
have been implemented.                                    Contracts
The remaining recommendation involved the recov-          Period First Reported: October 1, 1989 to March 31,
ery of funds from contractors. It is scheduled for com-   1990
pletion in November 1991.
                                                          This regional review of the award and administration
Rental Payments                                           of guard service contracts found that the region
                                                          waived contractually required training without seek-
Period First Reported: April 1, 1990 to September 30,     ing compensation from contractors, and that contrac-
1990                                                      tors did not obtain required weapons permits. The
This review found that improved controls over lease       report contained 13 recommendations; 10 have been
payments were necessary. The report contained nine        implemented.
recommendations; eight have been implemented.             The remaining three recommendations involve seek-
The remaining recommendation, which requires the          ing recoveries from contractors. Two are scheduled
resolution of debits and credits for a lease and the      for implementation in October 1991; the other in Jan-
collection of any lease overpayments, is scheduled for    uary 1992.
implementation in April 1992.
                                                          Personal Property Sales
Rent Exemptions                                           Period First Reported: October 1, 1989 to March 31,
Period First Reported: April 1, 1990 to September 30,     1990
1990
                                                          This orG review disclosed that improved controls
This review identified the need for better manage-        were necessary to properly account for all personal
ment and control of rent exemptions. The report con-      property and to assure deposit of sales proceeds. The
tained eight recommendations; four have been              report contained 27 recommendations; 19 have been
implemented.                                              implemented.




                                                                                                               17
The eight remammg recommendations involve              Multiple Award Schedule Program
changes and improvements in internal controls.
These changes will be completed with revisions to a    Period First Reported: October 1, 1988 to March 31,
handbook and are scheduled for full implementation     1989
by January 1992.                                       This review identified the need for GSA action to im-
                                                       prove the identiflcation of the Government's office
Controls Over Accounts Receivable                      machine needs. The report contained five recommen-
                                                       dationsi four have been implemented.
Period First Reported: October 1, 1989 to March 31,
1990                                                   The remaining recommendation involves contracting
                                                       officer reviews of internal management records. It is
This OIG review identified significant problems with   scheduled to be implemented by May 1992.
billing procedures and computer programs used in the
Information Technology Fund. The report contained
six recommendationsi four have been implemented.
The two remaining recommendations require revi-        Construction Contract Administration
sions to computer programs. Full implementation is     Period First Reported: April 1, 1987 to September 30,
scheduled for December 1991.                           1987
                                                       This review of the construction of a Federal building
Purchase Order Form                                    advised GSA management of the need to enforce the
                                                       requirements for schedules and price breakdowns in
Period First Reported: Apnl1, 1989 to September 30,
                                                       construction contracts. The OIG made 13 recommen-
1989
                                                       dationsj 12 have been implemented.
This review of a purchase order form found that the
                                                       The remaining recommendation involves obtaining a
design of the form caused problems with data entry,
                                                       determination from an Architect and Engineering De-
processing, and mailing. The report contained one
                                                       ficiency Committee. The recommendation was origi-
recommendationi it has not yet been implemented.
                                                       nally scheduled for completion in June 1988, then
The recommendation, which requires redesign of the     implementation was revised to June 1990. The con-
purchase order form, is scheduled for completion in    tractor has since filed an appeal with the GSA Board
April 1992.                                            of Contract Appeals.




18
            APPENDIX II-AUDIT REPORT REGISTER
II                                                                                                            II
                                                                                              Financial
                                                                                         Recommendations
                                                                                     Funds to      Questioned
Date of    Audit                                                                    Be Put To     (Unsupported)
Report     Number                                Title                              Better Use         Costs
           (Note: Due to the pre-decisional nature of some audits, the financial recommendations
           pertaining to these reports are not listed in this Appendix.)




PBS        Internal Audits
04/03/91   A10073     Review of Administration of Lease No. GS-09B-88165, Wal-
                      nut Creek, CA, Region 9
04/03/91   Al1336     Preaward Lease Review: Fifth Floor, 525 Market Street, San
                      Francisco, California, Lease No. GS-09B-73066, Supple-
                      mental Lease Agreement No. 171
04/04/91   Al1124     Preaward Lease Review: First Republic Bank Building, Fort
                      Worth, Texas, Lease No. GS-07B-13S73
04/05/91   AlO084     Review of Operations of Federal Records Center Field Office
04/11/91   A00285     Review of GSA's Art Conservation Program, Region 5
04119/91   A10850     Preaward Lease Review: Securities and Exchange Commis-
                      sion, Chicago, illinois, Lease No. GS-05B-15226
04/24/91   A10229     Review of Buildings Management Field Office Procurement
                      and Asset Management Activities, Augusta, ME
04/30/91   A00632     Review of Fire Safety Conditions at the James M. Hanley
                      FOB, Syracuse, NY, Region 2
05110/91   A1l350     Preaward Lease Review: 235 Pine Street, San Francisco,
                      CAl Lease No. GS-09B-91305
05/13/91   Al1330     Review of Proposed Space Realignment, 525 Market Street,
                      San Francisco, CAl Region 9
05116/91   All131     Preaward Lease Review: Proposed One-Year Extension,
                      Denver West, Building No.3, Lease No. GS-08P-12762
OS/22/91   All041     Preaward Lease Audit: 2350 Market Street, St. Louis,
                      Missouri, Lease No. GS-06P-19888
OS/24/91   A10669     Audit of Preaward Leases: Somerset Park, Raleigh, NC,
                      Leases Nos. GS-04B-30358 and GS-04B-30359
OS/28/91   A10336     Preaward Lease Review: 100 Church Street, New York, NY,
                      Lease No. GS-02B-22590
05/31191   A10550     Audit of Proposed Lease Number GS-03B-10228, 250 West
                      Pratt Street, Baltimore, MD



                                                                                                             19
                                                                                            Financial
                                                                                       Recommendations
                                                                                   Funds to      Questioned
Date of    Audit                                                                  Be Put To     (Unsupported,
Report     Number                               Title                             Better Use         Costs
06/06/91   A10338    Postaward Lease Review: 95 Houseblock Road, Yaphank,
                     New York, Lease No. GS-02B-22519
06112/91   A00924    Postaward Audit of Lease Number GS-06P-09830, 80th and
                     Bond, Lenexa, Kansas
06112/91   A10671    Audit of Preaward Lease: Broward Financial Centre, Fort
                     Lauderdale, FL, Lease No. GS-04B-31611
06113/91   All 649   Preaward Lease Review: Executive Office Center, 2101 East
                     Jefferson Street, Rockville, MD, Lease No. GS-llB-10163
06/26/91   A10670    Audit of Preaward Lease: Gateway Building, Madison, AL,
                     Lease No. GS-04B-31423
06/27/91   A10552    Audit of Proposed Lease Number GS-03B-10245, 4615 Hol-
                     lins Ferry Road, Baltimore, Maryland
06/28/91   All 654   Preaward Lease Review: Gelman Building, 2120 L Street,
                     NW, Washington, DC, Lease No. GS-llB-lOl77
07/01191   All 642   Preaward Lease Review: 1425 New York Avenue, NW,
                     Washington, DC, Lease Nos. GS-llB-10120, 10121, 10122,
                     10123, and 10124
07/03/91   A00284    Review of Lease Administration Activities at Buildings       $38,354         $13,616
                     Management Field Offices, R.egion 5
07/08/91   A1l656    Preaward Lease Review: Ballston Tower Number 2 Build-
                     ing, 801 North Randolph Street, Arlington, Virginia, Lease
                     No. GS-llB-10173
07/23/91   AlO098    Review of Time and Attendance Practices, Houston Build-
                     ings Management Field Office
08113/91   A00933    Review of Procurement Activities at Buildings Manage-
                     ment Field Offices
08/21191   A1l670    Preaward Lease Review: Techworld Plaza, 800 K Street,
                     NW, Washington, DC, Lease No. GS-llB-10209
08/22191   A1001 8   Audit of Administration of GSA Elevator Maintenance
                     Contracts, Region 3
08/22/91   AlO103    Review of Laguna Niguel Field Office, Public Buildings                        $3,581
                     Service, Region 9
08/23/91   A10824    Review of the Battle Creek, Michigan Buildings Manage-                        $2,300
                     ment Field Office, Region 5
08/30/91   A00542    Review of the Administration of Elevator Maintenance
                     Contracts, Public Buildings Service, Region 9
09/04/91   A00689    Review of the Physical Security Survey Program, Region 9
09105/91   A00619    Review of the Physical Security Survey Program, Region 7
09/05/91   AI0516    Audit of the Award and Administration of Guard Contracts,
                     Region 3
09113/91   All147    Postaward Audit of Echelon Project Venture Lease, Austin,
                     Texas, Lease No. GS-07B-13416
09/20/91   A00809    Review of Radon Detection and Abatement, Region 2



20
                                                                                              Financial
                                                                                         Recommendations
                                                                                     Funds to      Questioned
Date of    Audit                                                                    Be Put To     (Unsupported,
Report     Number                                Title                              Better Use         Costs
09/23/91   A1l680    Preaward Lease Review: One Massachusetts Avenue, NW,
                     Washington, DC, Lease No. GS-llB-10213
09/23/91   A1l681    Preaward Lease Review: Techworld Plaza, 800 K Street,
                     NW, Washington, DC, Lease No. GS-llB-1021O
09/25/91   A1l661    Report on the Review of the Administration of Asbestos
                     Abatement Projects at the Headquarters Field Office, Wash-
                     ington, DC
09/26/91   A1l683    Pre award Lease Review: James Polk Building, 2521 Jeffer-
                     son Davis Highway, Arlington, VA, Lease No.
                     GS-11B-10265
09/27/91   A11146    Postaward Audit of Reuter Seed Building Lease, New
                     Orleans, LA, Lease No. GS-07B-13422



PBS        Contract Audits
04/16/91   A10316    Preaward Audit of Supplemental Architect and Engineering
                     Setvices Contract: Rose, Beaton & Rose, Architects & Engi-
                     neers, Solicitation No. GS-02P-90CUD0061 (N)
04/17/91   A11334    Preaward Audit of Lease Escalation Proposal: C & C Invest-
                     ments, Lease No. GS-09B-06600
04/19/91   A1l323    Audit of Claim for Increased Costs: The Herrick Corpora-
                     tion, Subcontractor to Tutor-Saliba Corporation, Contract
                     No. GS-09P-88-KTC-0232
04/22191   A10535    Audit of Claim for Increased Costs: A&C Building and
                     Industrial Maintenance Corporation, Contract No.
                     GS-11P88MJC0099
04/22191   All 644   Supplemental Audit of Claim for Increased Costs: Kora &
                     Williams Corporation, Contract No. GS-03B-78367
05/01191   All030    Audit of Cost or Pricing Data: Sachs Electric Company,
                     Contract No. GS06P90GYC0170(N)
05/09/91   All 640   Report on Application of Agreed-Upon Procedures to
                     Review Labor Rates and Indirect Cost Rate Under Contract
                     No. GS-llP-90-EGD-0167: Ellerbe Becket
OS/28/91   A10347    Postaward Audit of Commercial Facility Management Con-
                     tract: Hispanic Maintenance Services, Inc., Contract No.
                     GS-02P-90-CTC0025
05/30/91   A11343    Preaward Audi t of Architect and Engineering Services Con-
                     tract: Dworsky Associates, Solicitation No. GS-09P-89-
                     KTD-0137
05/31191   A00907    Audit of Termination Proposal: Continental Heller Corpo-
                     ration, Contract No. GS-09P-88-KTC-0163
05/31191   A1l639    Preaward Audit of Architect and Engineering Services Con-
                     tract: National Institute of Building Sciences, Contract No.
                     GS11P91EGD0113



                                                                                                            21
                                                                                             Financial
                                                                                        Recommendations
                                                                                    Funds to      Questioned
Date of    Audit                                                                   Be Put To     (Unsupported,
Report     Number                               Title                              Better Use         Costs
05/31191   All 645   Preaward Audit of Sole Source Contract: Roofers, Incorpo-
                     rated, Contract No. GS-llP91MKC0105
06/04/91   A10855    Preaward Audit of Architect and Engineering Services Con-
                     tract: Hanscomb Associates, Inc., Consultant to Ellerbe
                     Becket, Inc., Contract No. GSllP90EGD0167
06/06/91   A1l344    Pre award Audit of Architect and Engineering Services Con-
                     tract: Bentley Engineering Company, Contract No.
                     GS09P91KTC0040
06/06/91   A1l841    Preaward Audit of Architect and Engineering Services Con-
                     tract: Strang and Samaha, AIA, Contract No. GS-
                     11P91EGD0107
06/07/91   All 643   Audit of Claim for Increased Costs: Master Security, Inc.,
                     Contract No. GS11P88MJC0079 et. al.
06/10/91   A1l353    Preaward Audit of Architect and Engineering Services Con-
                     tract: ALSC Architects, P.S., Solicitation No. GS-09P-90-
                     KTD-0151
06111191   A10352    Preaward Audit of Supplemental Architect and Engineering
                     Services Contract: Robert E. Meadows P.c., Architect,
                     Solicitation No. GS-02P-90CUD0061(NJ                     .
06/11/91   A11950    Preaward Audit of Architect and Engineering Services Con-
                     tract: S3E, Incorporated, Contract No. GSllP91EGD0109
06/13/91   A00869    Preaward Audit of Cost or Pricing Data: American Environ-
                     mental Consultants, Contract No. GS-03P-88-DXC-0069
06/13/91   A11358    Preaward Audit of Architect and Engineering Services Con-
                     tract: Forell/Elsesser Engineers, Inc., Solicitation No.
                     GS-09P-90-KTC-0131
06/17191   A11356    Preaward Audit of Architect and Engineering Services Con-
                     tract: MBT Associates, Inc., Solicitation No. GS-09P-90-
                     KTC-0131
06/17/91   Al1357    Preaward Audit of Architect and Engineering Services Con-
                     tract: Gayner Engineers, Solicitation No. GS-09P-90-
                     KTC-0131
06120/91   A10356    Preaward Audit of Architect and Engineering Services Con-
                     tract: The Cannon Corporation, Solicitation No.
                     GS-02P91CUDOOlO(NJ
06/20/91   A11354    Preaward Audit of Architect and Engineering Services Con-
                     tract: Zabala, Giltzow, Albanese, Chartered, Solicitation
                     No. GS-09P-90-KTD-0151
06/26/91   A00870    Preaward Audit of Cost or Pricing Data: P.T. Dick Contract-
                     ing, Inc., Contract No. GS-03P-88-DXC-0069
06/27/91   A1l947    Audit of Claim for Increased Costs: Brener Building Main-
                     tenance Company, Inc., Contract No. GS-03P-89-
                     DXC-0233
06/28/91   Al 1033   Audit of Cost or Pricing Data: The Helping Hand of Good-
                     will Industries, Contract No. GS-06P-90-GXC-0054



22
                                                                                              Financial
                                                                                         Recommendations
                                                                                     Funds to      Questioned
Date of     Audit                                                                   Be Put To     (Unsupported)
Report      Number                               Title                              Better Use        Costs
07/08/S'1   A11133    Preaward Audit of Architect and Engineering Ser. ~ces Con-
                      tract: Stoeltje &. Associates, Inc., Solicitation No.
                      GS-O 7P-90-JUD-0022
07/09/91    A10353    Pre award Audit of Lease Escalation Proposal: 2236 Nos-
                      trand Avenue, Brooklyn, New York, Lease No. GS-
                      02B-18050
07112191    A00871    Preaward Audit of Change Order Proposal: American Envi-
                      ronmental Consultants, Contract No. GS-03P-88-
                      DXC-0069
07116/91    A00872    Preaward Audit of Change Order Proposal: P.J. Dick Con-
                      tracting, Inc., Contract No. GS-03P-88-DXC-0069
07116/91    A10816    Preaward Audit of Cost or Pricing Data: H &. S Construc-
                      tors, Solicitation No. GS-llP90MKC0147 (NEG)
07118/91    A1l632    Preaward Audit of Lease Alteration Proposal: Long Branch
                      Office Park, Limited Partnership, Lease No. GS-llB-70149
07/19/91    A10363    Preaward Audit of Supplemental Architect and Engineering
                      Services Contract: Lebron Associates, Solicitation No.
                      GS-02P91-CUD0026 (NEG)
07/19/91    A1ll36    Preaward Audit of Supplemental Architect and Engineering
                      Services Contract: Cromwell Architects, Contract No.
                      GS-07P-91-JUD-0008
07/23/91    A10317    Preaward Audit of Supplemental Architect and Engineering
                      Services Contract: Ecology and Environment, Inc., Solicita-
                      tion No. GS-02P-91-CUD-00IO{N)
07/23/91    All 123   Preaward Audit of Supplemental Architect and Engineer
                      Services Contract: Aguirre Associates, Inc., Proposed Con-
                      tract No. GS-07P-91-JUD-OOOl
07/23/91    A1ll32    Preaward Audit of Architect and Engineering Services Con-
                      tract: Baker-Aicklen &. Associates, Inc., Solicitation No.
                      GS-07P-90-JUD-0022
07/24/91    A10366    Preaward Audit of Supplemental Architect and Engineering
                      Services Contract: Lebron Associates, Solicitation No.
                      GS-02P91-CUD0028 (NEG)
07126191    A1l669    Preaward Audit of Architect and Engineering Services Con-
                      tract: Patton Harris Rust and Associates, PC, Consultant to
                      Skidmore, Owings &. Merritt,              Solicitation No.
                      GSllP91EGC0120
07/30/91    A10871    Preaward Audit of Architect and Engineering Services Con-
                      tract: Gage-Babcock &. Associates, Inc., Consultant to
                      Skidmore,    Owings      &.   Merritt,    Contract    No.
                      GS11P91EGC0120
07/31191    All 119   Audit of Claim for Increased Costs: Dawson Construction
                      Company, Inc., Contract No. GS-07B-31521
07/31191    A1ll27    Audit of Claim for Increased Costs: Mechanical Construc-
                      tion Company of New Orleans, Inc., Contract No.
                      GS-07B-31521



                                                                                                             23
                                                                                             Financial
                                                                                        Recommendations
                                                                                    Funds to      Questioned
Date of    Audit                                                                   Be Put To     (Unsupported,
Report     Number                               Title                              Better Use         Costs
07/31191   A1l128    Pre award Audit of Supp~cmental Architect and Engineer
                     Services Contract: 3D/International, Inc., Contract No.
                     GS-07P-91-JUD-0003
07/31191   Al1l29    Audit of Claim for Increased Costs: Boudreaux's Dry Walls,
                     Inc., Contract No. GS-07B-31521
07/31191   A1l130    Audit of Claim for Increased Costs: Orleans Electric Con-
                     struction, Inc., Contract No. GS-07B-31521
07/31191   A11l34    Preaward Audit of Architect and Engineering. Services Con-
                     tract: Talex, Inc., Solicitation No. GS-07P-90-JUD-0022
07/31191   All 668   Preaward Audit of Architect and Engineering Services Con-
                     tract: MMP International Inc., Consultant to Skidmore,
                     Owings &. Merrill, Solicitation No. GSllP91EGC0120
08/01/91   A10543    Preaward Audit of Architect and Engineering Services Con-
                     tract: Geddes Brecher Qualls Cunningham, Solicitation
                     No. GS-03P-90-DXC-0028
08/02/91   A10373    Preaward Audit of Cost or Pricing Data: S &. S Plumbing
                     Co., Inc., Solicitation No. GS02P91CUC0054(Negl
08/05/91   A11054    Preaward Audit of Architect and Engineering Services Con-
                     tract: Howard Needles Tammen and Bergendoff, Solicita-
                     tion No. GSllP91EGC0120
08/06/91   AI0123    Preaward Audit of Architect and Engineering Services Con-
                     tract: Wilson, Stoeltje, Martin, Inc., Solicitation No.
                     GS-07P-90-JUD-0022
08/07/91   A10547    Preaward Audit of Architect and Engineering Services Con-
                     tract: Daroff Design Inc., Solicitation No. GS-03P-90-
                     DXC-0028
08/08/91   A1l408    Audit of Termination Proposal: Eastern Maintenance &.
                     Services, Inc., Contract No. GS-09P-90-KTC-0071
08113/91   A1l634    Audit of Claim for Bid Preparation and Protest Costs: Peter
                     N. G. Schwartz Companies, Judiciary Square Limited Part-
                     nership, Solicitation No. 89-047
08/14/91   AlO649    Preaward Audit of Change Order Proposal: Georgia
                     Specialty Constructors, Inc., Contract No. GS-04B-30013
08114/91   All053    Audit of Claim for Increased Costs: The Bratton Corpora-
                     tion, Subcontractor to Thtor-Saliba Corporation, Contract
                     No. GS09P88KTC0232
08114/91   A1l678    Report on Application of Agreed-Upon Procedures to
                     Review Indirect Cost Rate Under Contract No.
                     GSllP91EGC01l1, David Volkert and Associates, Inc.
08/14/91   A11854    Preaward Audit of Architect and Engineering Services Con-
                     tract: Delon Hampton &. Associates, Chartered, Solicita-
                     tion No. GS11P91EGC0120
08116/91   A10544    Preaward Audit of Architect and Engineering Services Con-
                     tract: Day &. Zimmerman, Inc., Solicitation No.
                     GS-03P-90-DXC-0028



24
                                                                                              Financial
                                                                                         Recommendations
                                                                                     Funds to      Questioned
Date of    Audit                                                                    Be Put To     (Unsupported}
Report     Number                               Title                               Better Use        Costs

08116/91   A10870   Preaward Audit of Architect and Engineering Services Con-
                    tract: Skidmore, Owings & Merrill, Solicitation No.
                    GSllP91EGC0120
08127/91   A10648   Preaward Audit of Change Order Proposal: Patterson-West
                    General Contractors, Inc., Contract No. GS-04B-30013
08/27/91   A10652   Preaward Audit of Change Order Proposal: Morgan Invest-
                    ment Properties, Inc., Contract No. GS-04B-30013
08/27/91   A1l375   Preaward Audit of Cost or Pricing Data: e.A.E. & Associ-
                    ates, Inc., Solicitation No. GS-09P-91-LTC-0061
08/28/91   A10245   Preaward Audit of Architectural and Engineering Design
                    Services Contract, Solicitation No. GS-02P-09-1-CUC-
                    0030: Jung-Brannen Architects Associates, Inc., Boston,
                    Massachusetts
08/28/91   A10246   Preaward Audit of Architectural and Engineering Design
                    Services Contract, Solicitation No. GS-02P-09-1-CUC-
                    0030: Lemessurier Consultants, Incorporated, Boston,
                    Massachusetts
08/28/91   A1l667   Pre award Audit of Architect and Engineering Services Con-
                    tract: Systech Group, Inc., Consultant to Skidmore,
                    Owings & Merrill, Solicitation No. GSIIP91EGC0120
09/06/91   A10650   Preaward Audit of Architect and Engineering Services Con-
                    tract: I.e. Thomasson Associates, Inc., Contract No.
                    GS-04P-89-EXC-0103
09/06/91   A1l405   Audit of Claim for Increased Costs: Willis Construction
                    Co., Inc., Contract No. GS09P88KTC0232
09/06/91   A1l659   Preaward Audit of Cost or Pricing Data: Alkat Electrical
                    Contractors, Inc., Contract No. GS-03P-90-DWC-0098
09/11/91   A1l658   Preaward Audit of Cost or Pricing Data: Macton Construc-
                    tion, Inc., Contract No. GS-llP91MQC0125
09112/91   A1l416   Audit of Claim for Increased Cost: Superior Gunite, Sub-
                    contractor to TUtor-Saliba Corporation, Contract No.
                    GS-09P-88-KTC-0232
09116/91   A1l662   Preaward Audit of Lease Alteration Proposal: Rouse Office
                    Management, Inc., Lease No. GS-llB-90304
09119/91   A10248   Preaward Audit of Change Order Proposal: Ogden Allied
                    Government Services, Contract No. GS01P86BWC0103
09/19/91   A10879   Preaward Audit of Architect and Engineering Services Con-
                    tract: Leonard Parker Associates, Architects, Inc., Solicita-
                    tion No. GS05P91GBC0039
09119/91   A1l674   Preaward Audit of Architect and Engineering Services Con-
                    tract: Quinn Evans/Architects, Inc., Contract No.
                    GS11P91EGD0114
09/20/91   A10886   Preaward Audit of Architect and Engineering Services Con-
                    tract: Skidmore, Owings & Merrill, Solicitation No.
                    GS11P91EGC0112



                                                                                                            25
                                                                                            Financial
                                                                                       Recommendations
                                                                                   Funds to      Questioned
Date of    Audit                                                                  Be Put To     (Unsupported)
Report     Number                               Title                             Better Use         Costs
09127/91   A10868    Preaward Audit of Lease Escalation Proposal: Detroit Asso-
                     ciates Limited Partnership, Lease No. GS-05BR-9585
09/27/91   A10884    Preaward Audit of Architect and Engineering Services Con-
                     tract:  Ratio    Architects,   Inc.,   Solicitation   No.
                     GS05P91GBD0051
09127/91   All152    Audit of Claim for Increased Costs: George Harbison, Inc.,
                     Contract No. GS-07B-31292
09/30/91   All 114   Audit of Claim for Increased Costs: Jordan & Nobles Con-
                     struction Co., Contract No. GS-07B-31292
09/30/91   A11651    Preaward Audit of Architect and Engineering Services Con-
                     tract: Girard Engineering, Contract No. GSllP91EGC0118


FSS        Internal Audits
04/02/91   A101l7    Review of Commodity Center Procurement Contract
                     Coverage
04111191   A00896    Review of the Ober Travel Management Center, Contract
                     No. GS-OWF-53293
04/18/91   AI0005    Audit of The Chesapeake Fleet Management Subcenter
04/24/91   A00431    Review of the Commodity Center Procurement Division,
                     Federal Supply Service, Region 9
04/30/91   A10137    Review of Inventory of Sensitive Items, Western Distribu-
                     tion Center, Stockton, California, Region 9
OS/22/91   Al0077    Review of the Federal Supply Service, Personal Property
                     Donation Program at the Louisiana Federal Property Assis-
                     tance Agency
06/05/91   A00550    Review of Personal Property Sales Procedures, Region 9
06/14/91   A00781    Review of the Effectiveness of the Quality Approved Manu-
                     facturers Agreement Program, Region 5
06/24/91   A00582    Review of the Travel Management Center, Forster-Joyce
                     Travel, New York, NY
07/25/91   A00785    Audit of Federal Supply Service, Personal Property Sales,
                     Region 3
07/25/91   A1l390    Review of the Travel Management Center Operated by
                     Balboa Travel, Inc., Contract No. GS-09F-80274
08/08/91   A10327    Audit of Personal Property Sales, Federal Supply Service
08/13/91   All022    Audit of Operations of GSA's Discrepancy Reports Center
08/30/91   A00868    Report of the Consolidated Review of the Certification and
                     Training Program for Quality Assurance Specialists in the
                     Federal Supply Service
09/13/91   AI0122    Review of the Contract Administration of Travel Manage-
                     ment Centers, Region 9




26
                                                                                           Financial
                                                                                      Recommendations
                                                                                  Funds to      Questioned
Date of    Audit                                                                 Be Put To     (Unsupported,
Report     Number                             Title                              Better Use         Costs
09/11/91   A00104   Audit of Hazardous Waste Disposal at the Northeast Distri-
                    bution Center



FSS        Contract Audits
04/02191   AlO144   Preaward Audit of Cost or Pricing Data: Davlin Paint Com-
                    pany, Inc., Solicitation No. TFTC-90-MT-S06AB
04/02/91   A10230   Preaward Audit of Multiple Award Schedule Contract:
                    Security Engineered Machinery Co., Inc., Solicitation No.
                    FCGE-90-0030B-N
04/04/91   A1l316   Preaward Audit of Multiple Award Schedule Contract:
                    Mark Industries, Solicitation No. 7FXI-B7-91-4906-B
04/0S/91   AlO134   Preaward Audit of Multiple Award Schedule Contract: Tab
                    Products Company, Solicitation No. FCNS-90-G701-
                    N-7-26-90
04/09/91   Al1014   Preaward Audit of Multiple Award Schedule Contract:
                    Calgon Vestal Laboratories, Solicitation No. TFTC-90-
                    LT-792AB
04/09/91   A1l319   Preaward Audit of Multiple Award Schedule Contract:
                    Memorex Computer Supplies, Solicitation No. 2FYS-
                    AW-90-000SB
04/09/91   Al1324   Preaward Audit of Multiple Award Schedule Contract:
                    Daihatsu America, Inc., Solicitation No. FCAS-S6-91-2301-
                    B-N-01-22-91
04/10/91   A10231   Preaward Audit of Cost or Pricing Data: Security Engi-
                    neered Machinery Co., Inc., Solicitation No. FCGE-
                    90-0030B-N
04112191   A10349   Preaward Audit of Multiple Award Schedule Contract:
                    Pharmacia LKB Biotechnology Inc., Solicitation No. FCGS-
                    Z3-90-0020-B
04112191   AllS24   Preaward Audit of Multiple Award Schedule Contract:
                    Neslab Instruments, Inc., Solicitation No. FCGS-
                    Xl-90-0022-B-9-27 -90
04/17/91   A1102S   Preaward Audit of Multiple Award Schedule Contract:
                    Western Lithotech, Solicitation No. FCGE-90-0030B-
                    N-12-27-90
04/18/91   Al1320   Preaward Audit of Multiple Award Schedule Contract:
                    Dionex Corporation, Solicitation No. FCGS-Z3-90-0020-B
04119/91   A10346   Pre award Audit of Cost or Pricing Data: Dennison Monarch
                    Systems, Inc., Solicitation No. FCNS-90-G701-N-7-26-90
04/22191   A101S4   Preaward Audit of Cost or Pricing Data: Hoover Systems,
                    Inc., Solicitation No. FCNO-90-M401-B-9-11-90




                                                                                                         27
                                                                                            Financial
                                                                                       Recommendations
                                                                                   Funds to      Questioned
Date of    Audit                                                                  Be Put To     (Unsupported)
Report     Number                              Title                              Better Use         Costs
04/25/91   Al1326    Preaward Audit of Multiple Award Schedule Contract:
                     Taylor-Dunn Manufacturing Company, Solicitation No.
                     FCAS-S6-91-2301-B-N-01-22-91
04/26/91   AlOlS2    Preaward Audit of Multiple Award Schedule Contract:
                     GenL Industries, Solicitation No. 7FXI-B7-91-4906-B
04/30/91   A10537    Limitea Audit of Government Billings Under Contract                            $2,671
                     Number GS-OOF-01836: Hotpack Corporation
05/01/91   A10645    Preaward Audit of Multiple Award Schedule Contract: Hy-
                     Klas Paints, Inc., Solicitation No. TFTC-90-MT-806AB
05/03/91   AlOS33    Preaward Audit of Multiple Award Schedule Contract: JLG
                     Industries, Inc., Solicitation No. 7FXI-B7-91-4906-B
05/08/91   A10822    Preaward Audit of Multiple Award Schedule Contract:
                     Diversey Corp., Solicitation No. TFTC-90-LT-792AB
05113/91   Al1349    Pre award Audit of Multiple Award Schedule Contract: Vari-
                     an Microwave Equipment Products, Solicitation No. FCGS-
                     X4-90-0025B-N
05/14/91   A10841    Preaward Audit of Multiple Award Schedule Contract: Fel-
                     lowes, Solicitation No. FCGE-90-0030B-N
05116/91   A10529    Preaward Audit of Cost or Pricing Data: Grolen Incorpo-
                     rated, Solicitation No. FCNS-90-G701-N-7-26-90
OS/23/91   A 10663   Preaward Audit of Cost or Pricing Data: Brushking, Divi-
                     sion of Loos &. Co., Inc., Solicitation No. 7FXI-US-90-
                     3704-B
05123/91   A10844    Preaward Audit of Multiple Award Schedule Contract:
                     Polaris Industries L.P., Solicitation No. FCAS-S6-91-2301-
                     B-N-1-22-91
OS/24/91   A10839    Preaward Audit of Multiple Award Schedule Contract: 3M,
                     Data Storage Products Division, Solicitation No. 2FYS-
                     AW-90-000SB
05128/91   A1l331    Preaward Audit of Multiple Award Schedule Contract:
                     Bianchi International, Solicitation No. 7FXG-B3-91-8411-B
OS/28/91   A1l342    Preaward Audit of Multiple Award Schedule Contract:
                     Berkeley Nucleonics Corporation, Solicitation No. FCGS-
                     X4-90-002SB-N
05/30/91   A1l332    Preaward Audit of Multiple Award Schedule Contract:
                     Spectra Physics Analytical, Inc., Solicitation No. FCGS-
                     Z3-90-0020-B
05/31191   A10840    Preaward Audit of Multiple Award Schedule Contract: AM
                     Multigraphics, Solicitation No. FCGE-90-0030B-N-12-
                     27-90
06/04/91   A10838    Pre award Audit of Multiple Award Schedule Contract: The
                     Challenge Machinery Company,           Solicitation No.
                     FCGE-90-0030B-N-12-27 -90
06/06/91   A1l333    Preaward Audit of Multiple Award Schedule Contract:
                     Applied Biosystems, Inc., Solicitation No. FCGS-
                     Z3-90-0020-B


28
                                                                                            Financial
                                                                                       Recommendations
                                                                                   Funds to      Questioned
Date of    Audit                                                                  Be Put To     (Unsupported}
Report     Number                               Title                             Better Use         Costs
06/06/91   All81s    Report on Audit of Proposal for Initial Pricing Under RFP
                     No. 7FXI-G6-90-s317-N: Sargent & Greenleaf Inc.,
                     Nicholasville, Kentucky
06/07191   AlO847    Limited Scope Audit of Government Billings Under Con-                          $2,469
                     tract No. GS-00F-01336: AM Multigraphics
06/07191   All 115   Audit of Termination Proposal: Richerson Construction,
                     Inc., Contract No. GS-07P-89-HUC-0117
06/10191   AlO3s8    Preaward Audit of Multiple Award Schedule Contract:
                     Marconi Instruments, Inc., Solicitation No. FCGS-
                     X4-90-002s-B
06/10/91   A11126    Preaward Audit of Cost or Pricing Data: 'TWenty First Cen-
                     tury International Fire Equipment and Services Corpora-
                     tion, Solicitation No. 7FXI-R7-90-30
06/11/91   A1l3s1    Preaward Audit of Multiple Award Schedule Contract: Data
                     Check Corporation, Solicitation No. FCGS-X4-90-002sB-N
06112191   A11401    Preaward Audit of Cost or Pricing Data Proposal:
                     Argosystems, Inc., Solicitation No. FCGS-X4-90-002S-B-N
06/13/91   A11339    Preaward Audit of Multiple Award Schedule Contract: Wil-
                     tran Company, Solicitation No. FCGS-X4-90-002s-B-N
06/17191   AlOISI    Postaward Audit of Multiple Award Schedule Contract:                         $76,354
                     Ilford Photo Corporation, Contract No. GS-00F-014S3
06/19191   AlO8s1    Preaward Audit of Multiple Award Schedule Contract:
                     Rosemount Office Systems, Inc., Solicitation No.
                     FCNS-91-B901-B-3-S-91
06/20191   AlOs26    Preaward Audit of Multiple Award Schedule Contract:
                     Gralen Incorporated, Solicitation No. FCNS-90-G701-
                     N-7-26-90
06/20191   A11034    Audit of Pricing Proposal: Union Pacific Railroad Company,
                     Contract No. GS-04F-91-ETS-062s
06/21/91   A108s4    Preaward Audit of Multiple Award Schedule Contract: GF
                     Office Furniture, Ltd., Solicitation No. FCNS-91-B901-
                     B-3-s-91
06124/91   A113s2    Preaward Audit of Multiple Award Schedule Contract:
                     Tektronix Inc., Solicitation No. FCGS-X4-90-002sB-N
06/25/91   AlO849    Preaward Audit of Multiple Award Schedule Contract:
                     Shaw-Walker, Solicitation No. FCNS-91-B901-B-3-S-91
06125/91   A113s9    Pre award Audit of Multiple Award Schedule Contract:
                     Wavetek San Diego, Inc., Solicitation No. FCGS-
                     X4-90-002sB-N
06/26/91   A10361    Preaward Audit of Multiple Award Schedule Contract:
                     Leader Instruments Corporation, Solicitation No. FCGS-
                     X4-90-002s-B-N
06/26/91   A108s3    Preaward Audit of Multiple Award Schedule Contract:
                     Haworth, Inc., Solicitation No. FCNS-91-B901-B-3-5-91


                                                                                                             29
                                                                                           Financial
                                                                                      Recommendations
                                                                                  Funds to      Questioned
Date of    Audit                                                                 Be Put To     (Unsupported)
Report     Number                             Title                              Better Use         Costs
06/26/91   A1l341   Preaward Audit of Multiple Award Schedule Contract:
                    Hughes Electron Dynamics Division, Solicitation No.
                    FCGS-X4-90-002SB-N
06/27/91   A10232   Preaward Audit of Multiple Award Schedule Contract:
                    American Science and Engineering, Inc., Solicitation No.
                    7FXG-B3-91-8411-B
06/27/91   A10837   Pre award Audit of Cost or Pricing Data: KMS Advanced
                    Products, Inc., Solicitation No. GSC-KESF-B-C-00044-
                    N-1O-23-90
06/27/91   A1112S   Preaward Audit of Multiple Award Schedule Contract:
                    Stihl, Inc., Solicitation No. 7FXI-MS-90-3601-B
06/28/91   A10360   Preaward Audit of Multiple Award Schedule Contract: Pre-
                    cision Filters, Inc., Solicitation No. FCGS-X4-90-002S-B-N
06/28/91   AlOS21   Preaward Audit of Multiple Award Schedule Contract: E.!.
                    Du Pont De Nemours & Company, Inc., Biotechnology Sys-
                    tems Division, Solicitation No. FCGS-Y8-90-0021-
                    B-N-8-22-90
06/28/91   A1l834   Pre award Audit of Cost or Pricing Data: NATCO, Inc.,
                    Solicitation No. FCNS-90-G701-N-7-26-90
07/0S/91   A10860   Preaward Audit of Multiple Award Schedule Contract:
                    Federal Signal Corporation, Solicitation No. 7FXG-
                    B3-91-8411-B
07/11/91   A00233   Postaward Audit of Multiple Award Schedule Contract:                         $337,438
                    Eberline Instrument Corp., Contract No. GSOOF-01888
07/11/91   AI0672   Limited Audit of Government Billings: Brushking, Divi-                         $4,096
                    sion of Loos & Co., Inc., Contract No. GS-07F-17S62
07/12/91   Al1400   Preaward Audit of Multiple Award Schedule Contract: John
                    Fluke Manufacturing Co., Inc., Solicitation No. FCGS-
                    X4-90-002SB-N
07/1S/91   AllOqS   Pre award Audit of Multiple Award Schedule Contract:
                    Trendway Corporation, Solicitation No. FCNS-91-B901-
                    B-3-S-91
07118/91   A10331   Pre award Audit of Multiple Award Schedule Contract:
                    Point Blank Body Armor, Inc., Solicitation No. 7FXG-
                    B3-91-8411-B
07118/91   A103S9   Pre award Audit of Multiple Award Schedule Contract:
                    Logimetrics, Inc., Solicitation No. FCGS-X4-90-002S-B-N
07119/91   A1l360   Preaward Audit of Multiple Award Schedule Contract:
                    Hewlett-Packard Company, Solicitation No. FCGS-
                    X4-90-002SB-N
07123/91   A10328   Preaward Audit of Multiple Award Schedule Contract:
                    Lecroy Corporation, Solicitation No. FCGS-X4-90-002SB-N
07/2S/91   Al1346   Preaward Audit of Multiple Award Schedule Contract:
                    EG&G Astrophysics Research Corporation, Solicitation
                    No. 7FXG-B3-91-841l-B



30
                                                                                            Financial
                                                                                       Recommendations
                                                                                   Funds to      Questioned
Date of     Audit                                                                 Be Put To     (Unsupported,
Report      Number                              Title                             Better Use         Costs
07129/~ 1   AlO644   Preaward Audit of Multiple Award Schedule ~ontract:
                     Steelcase, Inc., Solicitation No. FCNS-91-B901-B-3-S-91
07/30/91    A1l851   Pre award Audit of Multiple Award Schedule Contract:
                     Charles Stott/Thonet, Solicitation No. FCNH-91-FW01-
                     B-5-2-91
07/31191    Al1052   Preaward Audit of Multiple Award Schedule Contract: Pro
                     Star Sports, Inc., Solicitation No. 7FXG-L3-91-7S02-B
08/05/91    AlO640   Pre award Audit of Multiple Award Schedule Contract: Rose
                     Talbert Paint Company, Solicitation No. TFTC-90-
                     MT-806AB
08/0S/91    A10375   Audit of Termination Proposal: Pinay Flooring Products,
                     Inc., Contract No. GS-04F-02145
08/0S/91    A1l402   Audit of Termination Proposal: Air, Inc., Contract No.
                     GS-OOF-90620
08/09/91    AlO857   Preaward Audit of Multiple Award Schedule Contract:
                     Herman Miller Inc., Solicitation No. FCNS-91-B901-
                     B-3-5-91
08/20/91    AlO641   Preaward Audit of Multiple Award Schedule Contract:
                     Night Vision Equipment Company, Inc., Solicitation No.
                     7FXG-B3-91-S411-B
08/20/91    A11340   Preaward Audit of Multiple Award Schedule Contract:
                     Highes Microwave Products Division, Solicitation No.
                     FCGS-X4-90-0025B-N

08123/91    AlO856   Pre award Audit of Multiple Award Schedule Contract:
                     Westinghouse Electric Corporation, Furniture Systems
                     Division, Solicitation No. FCNS-91-B901-3-5-91
08/26/91    AlI051   Preaward Audit of Multiple Award Schedule Contract: Ring-
                     side Products, Inc., Solicitation No. 7FXG-L3-91-7S02-B
08/26/91    Al1153   Preaward Audit of Multiple Award Schedule Contract:
                     Sport Supply Group, Inc., aka BSN Sports, Solicitation No.
                     7FXG-L3-91-7S02-B
08/27/91    AlO549   Preaward Audit of Multiple Award Schedule Contract:
                     Teknion, Inc., Solicitation No. FCNS-91-B901-B-3-5-91
09/03/91    Al1044   Preaward Audit of Multiple Award Schedule Contract:
                     American Seating Company, Solicitation No. FCNS-91-
                     B901-B-3-5-91
09/03/91    A1I345   Preaward Audit of Multiple Award Schedule Contract: Tab
                     Products Co., Solicitation No. FCNS-91-B901-3-5-91
09/04/91    Al1050   Preaward Audit of Multiple Award Schedule Contract: Uni-
                     versal Gym Equipment, Inc., Solicitation No. 7FXG-
                     L3-91-7S02-B
09/04/91    A1l840   Preaward Audit of Multiple Award Schedule Contract: Poly-
                     chrome Corporation, Solicitation No. FGCE-90-0030B-
                     N-12-27-90



                                                                                                          31
                                                                                             Financial
                                                                                        Recommendations
                                                                                    Funds to      Questioned
Date of    Audit                                                                   Be Put To     (Unsupported]
Report     Number                               Title                              Better Use         Costs
09/06/91   All154    Preaward Audit of Multiple Awara Schedule Contract:
                     Chemonics Industries, Inc., Solicitation No. 7FX1-
                     L5-90-4209-B
09/09/91   AlI040    Preaward Audit of Cost or Pricing Data: Hamilton Sorter
                     Company, Inc., Solicitation No. FCNS-91-B901-B-3-5-91
09110/91   A10247    Preaward Audit of Multiple Award Schedule Contract:
                     Dudley Sports Company, Solicitation No. 7FXG-
                     L3-91-7802-B
09112/91   A1l417    Preaward Audit of Cost or Pricing Data: Datum, Inc., Solic-
                     itation No. GS-03F-91-AYC-0002
09/13/91   A10548    Preaward Audit of Cost or Pricing Data: Overly Manufac-
                     turing Company, Solicitation No. FCNS-90-G504-B
09/13/91   A10869    Preaward Audit of Multiple Award Schedule Contract:
                     Wilson Sporting Goods Co., Solicitation No. 7FXG-
                     L3-91-7802-B
09116/91   A90087    Postaward Audit of Multiple Award Schedule Contract:                        $1,636,238
                     Surgikos, Incorporated, Contract No. V797P-3955F
09117/91   A1l407    Preaward Audit of Multiple Award Schedule Contract:
                     Heart Rate, Incorporated, Solicitation No. 7FXG-
                     L3-91-7802-B
09/18/91   Al1I57    Preaward Audit of Multiple Award Schedule Contract:
                     Atmospheric Instrumentation Research, Inc., Solicitation
                     No. FCGS-X3-91-0026-B-N
09/19/91   A10374    Preaward Audit of Multiple Award Schedule Contract:
                     Centercore, Inc., Solicitation No. FCNS-91-B901-B
09/25/91   All 162   Preaward Audit of Multiple Award Schedule Contract:
                     Campbell Scientific, Inc., Solicitation No. FCGS-X3-
                     91-0026-B-N
09/27/91   Al1155    Pre award Audit of Multiple Award Schedule Contract: Hill-
                     Rom Company, Solicitation No. FCNH-91-FW01-B-5-2-91
09/27/91   A1I423    Preaward Audit of Cost or Pricing Data: Litton Systems,
                     Inc., Solicitation No. FXG-B3-91-8411-B
09/27/91   A1I852    Preaward Audit of Multiple Award Schedule Contract:
                     Chaselle, Inc., Solicitation No. 7FXG-L3-91-7802-B
09/30/91   A10829    Postaward Audit of Multiple Award Schedule Contract:
                     Rosemount Office Systems, Inc., Contract No.
                     GS-00F-7 665 7
09/30/91   A11857    Preaward Audit of Multiple Award Schedule Contract:
                     Invacare Corporation, Solicitation No. FCNH-91-FWOl-
                     B-5-2-91
09/30/91   A1I858    Preaward Audit of Cost or Pricing Data: Water Chemistry,
                     Inc., Solicitation No. TFTC-90-MC-685BB
09/30/91   A1l860    Preaward Audit of Multiple Award Schedule Contract:
                     Potomac Industrial Trucks, Inc., Solicitation No. 7FX1-
                     E5-91-3904-B



32
                                                                                           Financial
                                                                                      Recommendations
                                                                                  Funds to      Questioned
Date of    Audit                                                                 Be Put To     (Unsupported}
Report     Number                              Title                             Better Use         Costs

IRMS Internal Audits
05/06/91   AlOlOO   Review of Inspection Services of the GSA Purchase of Tele-
                    phone and Services (POTS) Contract
06/28/91   AlO022   Audit of ADP Accommodation Support for the Physically
                    Disabled
06/28/91   A90778   Review of the Information Resources Management Service,
                    Contract Services Program
07/09/91   Al1029   Audit of Telecommunications Operations Branch, Region 6
07/25/91   A90706   Review of Federal Information Systems Support Program,
                    Information Resources Management Service, Western Zone
09/18/91   AlO127   Review of Federal Emergency Communications Plans,
                    Region 7




IRMS Contract Audits
04/02/91   AI0227   Preaward Audit of Multiple Award Schedule Contract:
                    Wang Laboratories Inc., Solicitation No. GSC-KESF-
                    B-C-00044-N-10-23-90
04/02/91   AlO237   Limited Scope Postaward Audit of Multiple Award Schedule                      $13,738
                    Contract: Wang Laboratories Inc., Contract No.
                    GSOOK88AGS6193, Option Year 2
04/02/91   A1l315   Preaward Audit of Multiple Award Schedule Contract:
                    Fibermux Corporation, Solicitation No: GSC-KESF-
                    B-C-00044-N-l 0-23-90
04/04/91   A10136   Pre award Audit of Multiple Award Schedule Contract: Grid
                    Systems Corporation, Solicitation No. GSC-KESF-
                    B-C-00044-N-lO-23-90
04112191   A11830   Pre award Audit of Multiple Award Schedule Contract: U.S.
                    Design Corporation, Solicitation No. GSC-KESF-B-C-
                    00044-N-lO-23-90
04119191   A10320   Preaward Audit of Multiple Award Schedule Contract:
                    Timeplex, Inc., Solicitation No. GSC-KESF-B-C-OOOll-
                    N-lO-23-90
04/24/91   AlO150   Postaward Audit of Multiple Award Schedule Contract:                        $1,909,718
                    Carlisle Memory Products Group, Inc., Contract Nos.
                    GSOOK88AGS5035 and GSOOK88AGS0204
04/24/91   A11121   Preaward Audit of Cost or Pricing Data: Computer Data
                    Systems, Inc., Solicitation No. 7KCP-90-0009
04/24/91   A11122   Preaward Audit of Cost or Pricing Data: Selecttech Service
                    Corporation, Solicitation No. 7KCP-90-0009




                                                                                                             33
                                                                                           Financial
                                                                                      Recommendations
                                                                                  Funds to      Questioned
Date of    Audit                                                                 Be Put To     (Unsupported)
Report     Number                              Title                             Better Use         Costs
04/26/91   A10113   Preaward Audit of Multiple Award Schedule Contract:
                    Informix Software, Inc., Solicitation No. GSC-KESF-
                    B-C-00044-N-1O-23-90
04/30/91   AlOS30   Preaward Audit of Multiple Award Schedule Contract:
                    Infotron Systems Corporation, Solicitation No. GSC-
                    KESFBC00044N 102390
05/03/91   Al1118   Preaward Audit of Multiple Award Schedule Contract:
                    Memorex Telex Corporation, Solicitation No. GSC-KESF-
                    B-C-00044-N-1O-23-90
05/10/91   Al1116   Preaward Audit of Multiple Award Schedule Contract:
                    Wicat Systems, Inc., Solicitation No. GSC-KESF-
                    B-C-00044-N-1O-23-90
OS/10/91   A11939   Preaward Audit of Cost or Pricing Data: Racal Guardata,
                    Incorporated, Solicitation No. GSC-KESF-B-C-00044-
                    N-1O-23-90
OS/14/91   A11940   Limited Scope Audit of Planning Research Corporation for                    $411,252
                    the Period May I, 1984 through September 3D, 1987, Con-
                    tract No. GSOOK8402-C2267
05/14/91   A1l948   Preaward Audit of Cost or Pricing Data: Fibercom, Incorpo-
                    rated, Solicitation No. GSC-KESF-B-C-00044-N-I0-23-90
05/17/91   A11946   Preaward Audit of Cost or Pricing Data: AT&T Communi-
                    cations, Inc., Contract No. GSOOK89AHD0008
OS/30/91   A1194S   Audit of Termination Proposal: Spectrum Leasing Corpora-
                    tion, Contract No. GS-00C-700SS
05/31/91   A10148   Preaward Audit of Multiple Award Schedule Contract:
                    Austin Computer Systems, Inc., Solicitation No. GSC-
                    KESF-B-C-00044-N-1O-23-90
OS/31191   A10848   Limited Scope Audit of Government Billings Under Con-                         $3,144
                    tract No. GSOOK90AGS0214: 3M, Data Storage Products
                    Division
06/06/91   A11951   Audit of Termination Proposal: System Automation Corpo-
                    ration, Contract No. GS-00K-89-AJK0043
06/11/91   A10861   Audit of Billings Under ADP Technical Support Services
                    Contract: Computer Data Systems, Inc., Contract No.
                    GSOOK88AFD2632 Task Order No. CCA979727
06/20/91   Al1952   Preaward Audit of Cost or Pricing Data: Mastech Systems
                    Corporation, Solicitation No. KEGC-91-001
07116/91   A00613   Postaward Audit of Multiple Award Schedule Contract:                         $21,91S
                    Britton Lee, Inc. (Sharebasel, Contract No. GS-00K-89-
                    AGS-5579 for the Period October I, 1988 through Septem-
                    ber 30, 1989
07/16/91   Al1376   Preaward Audit of Multiple Award Schedule Contract:
                    Pyramid Technology Corporation, Solicitation No. GSC-
                    KESO-B-C-00045-N-4-23-91




34
                                                                                          Financial
                                                                                     Recommendations
                                                                                 Funds to      Questioned
Date of    Audit                                                                Be Put To     (Unsupported,
Report     Number                             Title                             Better Use         Costs
07123/91   A10368   Preaward Audit of Multiple Award Schedule Contract:
                    Syncsort Incorporated, Solicitation No. GSC-KESO-
                    C-0004S-N-4-23-91
07/24/91   A11386   Preaward Audit of Multiple Award Schedule Contract:
                    Compression Labs, Inc., Solicitation No. GSC-
                    KESV-00060-N-05-01-91
07/31191   A10241   Preaward Audit of Multiple Award Schedule Contract:
                    Symbolics, Inc., Solicitation No. GSC-KESO-C-0004S
08/02/91   A10242   Preaward Audit of Multiple Award Schedule Contract: Data
                    General Corporation, Solicitation No. GSC-KESO-
                    C-0004S-N
08/05/91   A10365   Preaward Audit of Multiple Award Schedule Contract: On-
                    Line Software International, Inc., Solicitation No. GSC-
                    KESO-C-0004S-N
08/05/91   A11137   Audit of Refund Proposal Under the Price Reduction                          $221,051
                    Clause: Motorola, Inc., Contract No. GSOOK-90-
                    AGS-0703/PSOl
08/08/91   A10367   Preaward Audit of Multiple Award Schedule Contract: Sony
                    Corporation of America, Solicitation No. GSC-KESO-
                    C-0004S-N
08/08/91   A11364   Preaward Audit of Multiple Award Schedule Contract: Mag-
                    navox Government and Industrial Electronics Company,
                    Solicitation No. GSC-KESR-00061-N-OS-01-91
08/12191   A11366   Preaward Audit of Multiple Award Schedule Contract: Plan-
                    tronics, Inc., Solicitation No. GSC-KESV-00060-N-OS-
                    01-91
08/13/91   A10243   Preaward Audit of Multiple Award Schedule Contract:
                    AGFA Corporation, Compugraphic Division, Solicitation
                    No. GSC-KESO-C-0004S-N
08/14/91   A11980   Audit of Termination Proposal: Information Systems Con-
                    sultants, Inc., Contract No. GS-00K-89-AJDOO43
08/20/91   A11363   Preaward Audit of Multiple Award Schedule Contract:
                    Interactive Development Environments, Solication No.
                    GSC-KESO-C-0004S-N-4-23-91
08127/91   A11978   Pre award Audit of Cost or Pricing Data: AT&T Federal
                    Systems for AT&T Communications, Inc., Contract No.
                    GS-00K-89-AHD0008
08128/91   A0072S   Postaward Audit of Multiple Award Schedule Contract:                        $197,350
                    Softool Corporation, Contract No. GS-00K-87-AGS-S774
                    for the Period October I, 1986 through September 30, 1989
08/29/91   AI0369   Preaward Audit of Multiple Award Schedule Contract: Con-
                    current Computer Corporation, Solicitation No. esc-
                    KESO-C-0004S-N




                                                                                                           35
                                                                                           Financial
                                                                                      Recommendations
                                                                                  Funds to      Questioned
Date of    Audit                                                                 Be Put To     (Unsupported,
Report     Number                             Title                              Better Use         Costs
09/03/91   A10376   Preaward Audit of Multiple Award Sche ~ule Contract: East-
                    man Kodak Company, Solicitation No. GSC-KESO-
                    C-00045-N
09/04/91   A10250   Limited Scope Postaward Audit of Government Billings                           $4,250
                    Under Contract Number GSOOK89AGS5574, Option Year
                    I, Symbolics, Inc.
09/05/91   A10221   Preaward Audit of Wang Laboratories, Inc, Solicitation No.
                    GSC-KESO-C-0004S-N
09/06/91   A10219   Limited Scope Postaward Audit of Government Billings                          $18,192
                    Under Contract Number GSOOK91AGSS8I5, Wang Labora-
                    tories, Inc.
09/06/91   Al1141   Preaward Audit of Multiple Award Schedule Contract:
                    Clyde Digital, Inc., Solicitation No. GSC-KESO-C-00045-
                    N-4-23-9I
09/06/91   A11367   Pre award Audit of Multiple Award Schedule Contract: Sili-
                    con Graphics, Inc., Solicitation No. GSC-KESO-C-00045-
                    N-4-23-91
09/06/91   A11985   Preaward Audit of Cost or Pricing Data: Pilot Research
                    Associates, Inc., Solicitation No. KECP-91-003
09110191   A10370   Preaward Audit of Multiple Award Schedule Contract:
                    Canon USA, Inc., Solicitation No. GSC-KESV-00060
09/lO/91   All045   Preaward Audit of Small Business Administration 81Al
                    Pricing Proposal: American Business Communications,
                    Inc., Solicitation No. 7KCS-6-90-0001-N
09117/91   A10239   Pre award Audit of Multiple Award Schedule Contract:
                    Digital Equipment Corporation, Solicitation No. GSC-
                    KESO-C-00045-N
09117/91   Al1139   Preaward Audit of Multiple Award Schedule Contract:
                    Decibel Products, Solicitation No. GSC-KESR-00061-
                    N-05-0I-91
09118/91   A1l388   Preaward Audit of Multiple Award Schedule Contract:
                    Tandem Computers Incorporated, Solicitation No. GSC-
                    KESO-C-00045-N-4-23-91
09/18/91   Al1395   Preaward Audit of Multiple Award Schedule Contract:
                    Micro Technology, Inc., Solicitation No. GSC-KESO-
                    C-00045-N-4-23-91
09/19/91   A11I45   Preaward Audit of Multiple Award Schedule Contract:
                    Texas Instruments, Inc., Advanced Information Manage-
                    ment Division, Solicitation No. GSC-KESO-C-00045-
                    N-4-23-91
09/25/91   AI0372   Preaward Audit of Multiple Award Schedule Contract:
                    Computer Associates International, Inc., Solicitation No.
                    GSC-KESO-C-00045-N
09/25191   AI0559   Preaward Audit of Multiple Award Schedule Contract:
                    Comdial Corporation, Inc., Solicitation No. GSC-
                    KESV-00060-N-5-1-91



36
                                                                                             Financial
                                                                                        Recommendations
                                                                                    Funds to      Questioned
Date of    Audit                                                                   Be Put To     (Unsupported)
Report     Number                              Title                               Better Use         Costs
09125/91   A11377   Preaward Audit of Multiple Award Schedule Contract:
                    Walker Interactive Systems, Solicitation No. GSC-
                    KESO-00045-N-4-23-91
09/25/91   A1l966   Pre award Audit of Multiple Award Schedule Contract: Soft-
                    ware AG Federal Systems, Inc., Solicitation No. GSC-
                    KESO-C-0004'i-N-4-23-91
09/25/91   A1l976   Pre award Audit of Cost or Pricing Data: Information Strate-
                    gies Group, Solicitation No. GSC-KESO-C-00045-
                    N-04-23-91
09/25/91   A1l982   Preaward Audit of Multiple Award Schedule Contract:
                    Information Strategies Group, Solicitation No. GSC-KESO-
                    C-00045-N-4-23-91
09/26/91   A10678   Preaward Audit of Multiple Award Schedule Contract:
                    Harris Corporation, Computer Systems Division, Solicita-
                    tion No. GSC-KESO-C-00045-N-4-23-91
09/26/91   A1l365   Preaward Audit of Multiple Award Schedule Contract: Sun
                    Microsystems Federal, Inc., Solicitation No. GSC-KESO-
                    C-00045-N-4-23-91
09/26/91   A1l396   Preaward Audit of Multiple Award Schedule Contract:
                    Teradata Corporation, Contract No. GSOOK91AGS5832
                    (Renewal)
09/30/91   A00051   Postaward Audit of Multiple Award Schedule Contract:                         $4,014,406
                    Digital Equipment Corporation, Contract No. GSOOK-
                    88AGS5918
09/30/91   A11971   Preaward Audit of Multiple Award Schedule Contract:
                    Microlog Corporation of Maryland, Solicitation No. GSC-
                    KESV-D0060-N-5-1-91
09/30/91   A1l986   Limited Audit of Government Billings: Microlog Corpora-                           $784
                    tion of Maryland, Contract No. GSOOK91AGS0583
                      \
09/30/91   A1l987   Limited Audit of Government Billings: Microlog Corpora-                        $50,533
                    tion of Maryland, Contract No. GSOOK88AGS0450PS02




Other Internal Audits
04/02191   A00729   Review of Region 6 Finance Division Processing of FSS
                    Personal Property Sales Proceeds
04/16/91   A00283   Review of Asset Management Branch Operations
04/18/91   AI0228   Review of Imprest Fund, Edmund S. Muskie Federal Build-
                    ing, Augusta, Maine
05/01/91   AI0092   Review of Time and Attendance Practices, Office of Admin-
                    istration, Finance Division, Accounts Payable Branch,
                    Region 7



                                                                                                             37
                                                                                              Financial
                                                                                         Recommendations
                                                                                     Funds to      Questioned
Date of    Audit                                                                    Be Put To     (Unsupported}
Report     Number                                Title                              Better Use         Costs

05/02191   A1l337    Review of Imprest Fund, Sacramento Fleet Management
                     Center, Region 9
05/06/91   A00825    Review of Assets Management Branch Operations, Region 7
05/31191   A10333    Review of the Imprest Fund of Cadman Plaza, Buildings
                     Management Field Office, Brooklyn, New York, Region 2
05/31/91   A10357    Review of Imprest Fund, Plattsburgh Buildings Manage-
                     ment Field Office, Region 2, Plattsburgh, New York
06/04/91   A10858    Review of Imprest Fund at the Indianapolis Field Office
06/05/91   A1l347    Review of Imprest Fund Number 1019, Richland Federal
                     Building, Region 9
06/20/91   AI1042    Audit of Imprest Fund Operations, Public Buildings Service
                     Field Office, Des Moines, Iowa
06/21191   A10215    Review of Imprest Fund, Buildings Management Field Of-
                     fice, Burlington, VT
07/08/91   All038    Audit of Time and Attendance Practices, Printing Plant 49,
                     601 East 12th Street, Kansas City, Missouri
07/22/91   AOO722    Audit of Controls Over Billings for Motor Vehicle Usage
                     and Services
07/23/91   A1l348    Review of Imprest Fund Number 1020, Puget Sound Field
                     Office, Region 9
07/31191   A10240    Audit of Imprest Fund, O'Neill Federal Building, Boston,
                     MA
08/28/91   A11394    Audit of Imprest Fund, GSA Sales Office, Bell, CA, Region 9
08/29/91   AI0527    Audit of Imprest Fund, West Philadelphia, PA
08/30/91   All 944   Review of the Administrative Procedures of the National
                     Commission on Migrant Education
09/04/91   A00509    Review of Controls Over Billing Operations of the General
                     Services Administration's Interagency Training Center
09/04/91   A10863    Review of Imprest Fund, Chicago Fleet Management Cen-
                     ter, Region 5
09/18/91   AOO795    Review of the Business Service Center, Region 5
09/24/91   All148    Audit of Imprest Fund, Austin Buildings Management Field
                     Office, Region 7
09/25/91   A1l522    Audit of Imprest Fund, Office of Technical Assistance, Falls
                     Church, Virginia
09/27/91   A10167    OIG Audit Highlights of GSA Services and Staff Offices
                     Reviewed in Fiscal Year 1990
09/27/91   All149    Audit of Imprest Fund, New Orleans Buildings Manage-
                     ment Field Office, Region 7
09/30/91   Al1361    Review of Imprest Fund, San Diego Fleet Management
                     Center, Region 9




38
II                          APPENDIX ID-DELINQUENT DEBTS
                                                                                                                                           II
GSA's Office of the Chief Financial Officer provided                                   •   Improved reporting and control capabilities
the following information.                                                                 of the claims tracking system to achieve
                                                                                           more timely and accurate follow-up actions
                                                                                           and reports. Requested additional computer
GSA EFFORTS TO IMPROVE DEBT                                                                equipment and a local area network to maxi-
COLLECTION                                                                                 mize the usefulness of this system.
During the period April I, 1991 through September 30,
1991, GSA efforts to improve debt collection and re-                                   •   Examined accounting technician files to de-
duce the amount of debt written off as uncollectible                                       termine the timeliness of collection action,
focused on upgrading collections functions and en-                                         and provided training when weaknesses
hancing debt management. These activities included                                         were discovered.
the following:
     •    Referred delinquent accounts to debt collec-                                 •   Reviewed accounts receivable operations in
          tion contractors for collection, delinquent                                      one region to ensure compliance with the
          consumer debt to credit reporting bureaus,                                       Debt Collection Act of 1982. This review
          and eligible cases to the Department of                                          included examinations of account servicing
          Justice.                                                                         procedures for non-Federal activities.


NON-FEDERAL ACCOUNTS RECEIVABLE


                                                                                       As of               As of
                                                                                    April 1, 1991   Septernber30, 1991    Difference

         Total Amounts Due GSA ............................................ .       $58,552,357        $43,563,792       $14,988,565
         Amount Delinquent .................................................... .   $34,557,299        $20,288,062       $14,269,237
         Total Amount Written Off as Uncollectible
           Between 4/1/91 and 9/30/91 .............................. .              $5A31,958


Of the total amounts due GSA and the amounts delin-                                  $18.8 million and $4 million, respectively, are being
quent as of April I, 1991 and September 30, 1991,                                    disputed.




                                                                                                                                          39
II          APPENDIX IV-REPORTING REQUIREMENTS
                                                                                                                                                                             II
The table below cross-references the reporting re-                                             Congress in Senate Report No. 96-829 relative to the
quirements prescribed by the Inspector General Act                                             1980 Supplemental Appropriations and Rescission
of 1978, as amended, to the specific pages where they                                          Bill is also cross-referenced to the appropriate page of
are addressed. The information requested by the                                                the report.



                                                                        Requirement                                                                                   Page

     Inspector General Act

       Section 4IaJ(2)-Review of Legislation and Regulations .................................................................... .                                    9
       Section Sla) II)-Significant Problems, Abuses, and Deficiencies .................................................. ..                                          2,4
       Section SlaJl2)-Recommendations With Respect to Significant Problems, Abuses,
         and Deficiencies ......................................................................................................................................... . 2,4
       Section Sla) (3)-Prior Recommendations Not Yet Implemented .................................................... .                                              16
       Section S(a) (4)-Matters Referred to Prosecutive Authorities ....'...................................................... .                                     13
       Sections S(aJlS) and 6(bJl2)-Summary of Instances Where Information Was Refused ............ .. None
       Section S(aI16)-List of Audit Reports ...................................................................................................... .                 19
       Section S(aJl7J-Summary of Each Particularly Significant Report ............................................... ..                                             2,4
       Section S(aJl8)-Statistical Tables on Management Decisions on Questioned Costs ............... .                                                               13
       Section S(aJl9)-Statistical Tables on Management Decisions on Recommendations
         That Funds Be Put to Better Use ........................................................................................................... .                12
       Section S(aJllO)-Summary of Each Audit Report Over 6 Months Old for Which No Man-
         agement Decision Has Been Made ....................................................................................................... .. None
       Section S(aJl11J-Description and Explanation for Any Significant Revised
         Management Decision .............................................................................................................................. . None
       Section S(aH12)-Inforrnation on Any Significant Management Decisions With
         Which the Inspector General Disagrees .............................................................................................. . None

     Senate Report No. 96-829

      Resolution of Audits .......................................................................................................................................    11
      Delinquent Debts ............................................................................................................................................   39




40
